1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
NALPROPION PHARMACEUTICALS, INC.,
Plaintiff-Appellee
v.
ACTAVIS LABORATORIES FL, INC.,
Defendant-Appellant
2018-1221
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00451-RGA, Judge
Richard G. Andrews.
Decided: August 15, 2019
DOMINICK A. CONDE, Venerable LLP, New York, NY
argued for plaintiff-appellee. Also represented by
CHRISTOPHER P. BORELLO, JOSHUA DANIEL CALABRO,
ZACHARY GARRETT, BRENDAN M. O'MALLEY.
JONATHAN D. BALL, Greenberg Traurig LLP, New
York, NY, argued for defendant-appellant. Also represented by SCOTT JOSEPH BORNSTEIN, JUSTIN ALBANO
MACLEAN, RICHARD CHARLES PETTUS.

2a
Before PROST, Chief Judge, LOURIE and WALLACH,
Circuit Judges.
Opinion for the court filed by Circuit Judge LOURIE.
Opinion dissenting in part filed by Chief Judge
PROST.
LOURIE, Circuit Judge.
Actavis Laboratories FL, Inc. (“Actavis”) appeals
from the judgment of the U.S. District Court for the
District of Delaware that (1) its proposed naltrexone
hydrochloride and bupropion hydrochloride extendedrelease tablets, which are the subject of Abbreviated
New Drug Application No. 208043 (the “ANDA product”), would infringe claim 1 of U.S. Patent 7,375,111
(“the ’111 patent”), claims 26 and 31 of U.S. Patent
7,462,626 (“the ’626 patent”), and claim 11 of U.S. Patent 8,916,195 (“the ’195 patent”); (2) the asserted
claims are not invalid; (3) the effective date of any
FDA approval of ANDA No. 208043 shall be no earlier
than the latest expiration of the ’111, ’626, and ’195
patents; and (4) Actavis is permanently enjoined from
manufacturing, using, or selling its ANDA product before the expiration of the patents in suit. Orexigen
Therapeutics, Inc. v. Actavis Labs. FL, Inc., 282 F.
Supp. 3d 793 (D. Del. 2017) (“Decision”); Final Judgment, Orexigen Therapeutics, Inc. v. Actavis Labs. FL,
Inc., No. 1:15-cv-451 (D. Del. Oct. 26, 2017), ECF No.
186. Because we conclude that the district court did
not err in finding claim 11 of the ’195 patent not invalid for lack of written description, but did err in finding that claim 1 of the ’111 patent and claims 26 and
31 of the ’626 patent would not have been obvious in
view of the prior art, we affirm-in-part and reverse-inpart.

3a
BACKGROUND
Appellee Nalpropion Pharmaceuticals, Inc. (“Nalpropion”) 1 holds New Drug Application No. 200063 for
and markets Contrave® for weight management in
overweight or obese adults. Relevant here are the
three Orange Book-listed patents for Contrave® that
Nalpropion asserted against Actavis: the ’626, ’195,
and ’111 patents.
The ’626 patent is drawn to a method for treating
overweight or obesity comprising (1) diagnosing an individual as suffering from overweight or obesity by
body mass index, (2) administering bupropion in
an amount effective to induce weight loss, and (3)
administering naltrexone in an amount effective
to enhance the weight loss activity of bupropion. ’626
Takeda Pharmaceutical Company Limited (“Takeda Ltd.”),
Takeda Pharmaceuticals International GmbH, Takeda Pharmaceuticals USA, Inc. (“Takeda USA”), and Takeda Pharmaceuticals, America, Inc. (collectively, “Takeda”) and Orexigen Therapeutics, Inc. (“Orexigen”) filed this suit in the District of Delaware. At the time of filing, Orexigen owned all three patents in
suit, Takeda Ltd. was the exclusive licensee of the patents, and
Takeda USA held approved New Drug Application No. 200063
for extended-release tablets containing 8 mg of naltrexone hydrochloride and 90 mg of bupropion hydrochloride. During the litigation, Orexigen acquired all of Takeda’s rights to Contrave®, including ownership of the NDA. Stipulation and Order at 1, Orexigen Therapeutics, Inc. v. Actavis Labs. FL, Inc., No. 1:15-cv-451
(D. Del. Oct. 5, 2017), ECF No. 92. After this appeal was taken,
however, Orexigen commenced bankruptcy proceedings under
Chapter 11 of Title of the United States Code in the U.S. Bankruptcy Court for the District of Delaware and transferred ownership of the patents-in-suit to Nalpropion. Unopposed Motion for
Substitution of Nalpropion Pharms. Inc. for Orexigen Therapeutics, Inc. at 1, Nalpropion Pharm. Inc. v. Actavis Labs. FL, Inc.,
No. 18-1221 (Fed. Cir. Aug. 28, 2018), ECF No. 30.
1

4a
patent col. 38 l. 60-col. 39 l. 4. Nalpropion asserted
claims 26 and 31. Claim 26 depends from claim 25,
which recites:
A method of treating overweight or obesity,
comprising administering a weight loss effective amount of a first and second compound to
an individual who has been diagnosed as suffering from overweight or obesity in order to
treat said overweight or obesity, wherein said
first compound is bupropion, or a pharmaceutically acceptable salt thereof, and said second
compound is naltrexone, or a pharmaceutically acceptable salt thereof, and wherein the
weight loss activity of said first and second
compounds is enhanced compared to the administration of the same amount of either
compound alone.
Id. col. 40 ll. 16-26. Claim 26 adds the additional limitation that naltrexone and bupropion “are administered together.” Id. col. 40. ll. 27-30. Claim 30 depends from claim 25 and requires that at least one of
the drugs be in a “sustained-release formulation,” id.
col. 40 ll. 41-44, while claim 31, which depends from
claim 30, requires that the drugs be “administered in
a single oral dosage form,” id. col. 40 ll. 45-49.
The ’195 patent is also directed to methods of treating overweight or obesity, but the claims are drawn to
specific dosages of sustained-release naltrexone and
bupropion that achieve a specific dissolution profile.
At issue here is claim 11:
A method of treating overweight or obesity
having reduced adverse effects comprising
orally administering daily about 32 mg of

5a
naltrexone and about 360 mg of bupropion, or
pharmaceutically acceptable salts thereof, to
a person in need thereof, wherein the bupropion or pharmaceutically acceptable salt
thereof is administered as a sustained release
formulation, wherein the naltrexone or pharmaceutically acceptable salt thereof is administered as a sustained release formulation,
and wherein said sustained release formulation of naltrexone has an in vitro naltrexone
dissolution profile in a dissolution test of USP
Apparatus 2 Paddle Method at 100 rpm in a
dissolution medium of water at 37° C. of:
a) between 39% and 70% of naltrexone
released in one hour;
b) between 62% and 90% of naltrexone
released in two hours; and
c) at least 99% in 8 hours;
wherein about 16 mg of said sustained release formulation of naltrexone or a pharmaceutically acceptable salt thereof is administered twice daily, and about 180 mg
of said sustained release formulation of
bupropion or a pharmaceutically acceptable salt thereof is administered twice
daily.
’195 patent col. 31 l. 5-col. 32 l. 3.
Finally, the ’111 patent is directed to a composition
of sustained-release bupropion and naltrexone for affecting weight loss. Asserted here is claim 1:
A composition for affecting weight loss comprising:

6a
(a) a sustained release formulation of bupropion or a pharmaceutically acceptable
salt thereof in an amount effective to induce weight loss in an individual; and
(b) a sustained release formulation of naltrexone or a pharmaceutically acceptable
salt thereof in an amount effective to enhance the weight loss effect of the bupropion or salt thereof;
wherein said composition is in a single
oral dosage form fixed combination.
’111 patent col. 41 ll. 26-35.
Actavis filed an ANDA seeking to enter the market
with a generic version of Contrave® prior to the expiration of the patents in suit, and Nalpropion responded by bringing an action for patent infringement, alleging that Actavis’s ANDA product would infringe the ’111, ’626, and ’195 patents. Actavis in turn
brought invalidity counterclaims, challenging claim
11 of the ’195 patent as invalid for lack of adequate
written description and challenging claim 1 of the ’111
patent and claims 26 and 31 of the ’626 patents as invalid as obvious. The district court held a bench trial
on all of these issues and held each claim not invalid
and infringed. Decision, 282 F. Supp. 3d at 797.
First, the district court considered Actavis’s written
description argument. Actavis argued that claim 11
of the ’195 patent lacked adequate written description
support because its claimed dissolution profile was
achieved using the USP Apparatus 2 Paddle Method
(“USP 2”), but the specification discloses data obtained using the different USP Apparatus 1 Basket

7a
Method (“USP 1”). The court was not persuaded that
the use of a different method from what is prescribed
in the claim presented a written description problem,
holding that “whether the dissolution data reported in
the specification was obtained using the basket
method or the paddle method is not relevant to
whether the inventors had possession of the invention.” Id. at 802. Instead, the court credited Nalpropion’s expert who opined that a person of ordinary
skill would recognize that the inventors possessed an
embodiment of the invention as described in Table 10,
regardless whether USP 2 or a “‘substantially equivalent’ method” was used. Id. at 801 (citation omitted).
Next, the district court addressed the question of obviousness of claim 1 of the ’111 patent and claims 26
and 31 of the ’626 patent. Actavis argued that it
would have been obvious for a person of skill to combine bupropion and naltrexone for treating overweight and obesity because both drugs were known to
cause weight loss, but the court disagreed, finding Actavis’s argument to be “a classic case of hindsight
bias.” Id. at 809.
Actavis appealed from the district court judgment,
and we have jurisdiction under 28 U.S.C. § 1295(a)(1).
DISCUSSION
On appeal from a bench trial, we review a district
court’s conclusions of law de novo and its findings of
fact for clear error. Braintree Labs., Inc. v. Novel
Labs., Inc., 749 F.3d 1349, 1358 (Fed. Cir. 2014). “A
factual finding is clearly erroneous when, despite
some supporting evidence, we are left with a definite
and firm conviction that the district court was in error.” Alcon Research Ltd. v. Barr Labs., Inc., 745 F.3d

8a
1180, 1186 (Fed. Cir. 2014) (citing Alza Corp. v. Mylan
Labs., Inc., 464 F.3d 1286, 1289 (Fed. Cir. 2006)).
“The burden of overcoming the district court’s factual
findings is, as it should be, a heavy one.” Polaroid
Corp. v. Eastman Kodak Co., 789 F.2d 1556, 1559
(Fed. Cir. 1986). “Where there are two permissible
views of the evidence, the factfinder’s choice between
them cannot be clearly erroneous.” Anderson v. City
of Bessemer City, 470 U.S. 564, 574 (1985) (citing
United States v. Yellow Cab Co., 338 U.S. 338, 342
(1949)).
Whether a claim satisfies the written description requirement is a question of fact, Ariad Pharm., Inc. v.
Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir. 2010)
(en banc), that we review for clear error, Alcon, 745
F.3d at 1190. “Whether an invention would have been
obvious at the time it was made is a question of law,
which we review de novo, based on underlying facts,
which we review for clear error.” Tokai Corp. v.
Easton Enters., Inc., 632 F.3d 1358, 1366 (Fed. Cir.
2011) (citing Media Techs. Licensing, LLC v. Upper
Deck Co., 596 F.3d 1334, 1337 (Fed. Cir. 2010)).
The district court rejected Actavis’s invalidity arguments that (1) claim 11 of the ’195 patent is invalid for
lack of adequate written description and (2) claim 1 of
the ’111 patent and claims 26 and 31 of the ’626 patent
are invalid as obvious. We address the court’s holdings in turn.
I. Written Description
Claim 11 of the ’195 patent recites a method of treating overweight or obesity comprising orally administering about 16 mg of naltrexone and about 180 mg of
bupropion, both in sustained-release formulations

9a
administered twice daily. This method claim also requires that the claimed naltrexone formulation have
an in vitro dissolution profile
in a dissolution test of USP Apparatus 2 Paddle Method at 100 rpm in a dissolution medium of water at 37°C. of:
a) between 39% and 70% of naltrexone released in one hour;
b) between 62% and 90% of naltrexone released in two hours; and
c) at least 99% in 8 hours . . . .
’195 patent col. 31 l. 14-col. 32 l. 3.
Example 1 of the specification discloses formulations of sustained-release naltrexone with varying
amounts of either hydroxypropylmethyl cellulose
(HPMC) or polyethylene oxide as excipients. The
HPMC formulations range from 5% HPMC to 66%
HPMC, and dissolution of these formulations was
tested in Example 2 using 10-mesh baskets at 100
rpm. The 15% HPMC tablet released 39% of its naltrexone at one hour and 62% at two hours. Id. col. 1718 (Table 5).
The first example in the specification to discuss a
naltrexone-bupropion combination is Example 3,
which describes tri-layer tablets with sustained-release naltrexone and bupropion layers on opposite
sides of an inert layer. That formulation includes 10%
HPMC. Dissolution of naltrexone was measured and
reported in Table 10, but the specification is silent as
to whether the data were obtained using USP 1 or
USP 2. Id. at col. 20 ll. 1-11.

10a
In finding adequate written description support for
the claimed dissolution profile, the district court found
that the values in Table 10—67% release in one hour
and 85% release in two—fell squarely within the
claimed range in claim 11. Decision, 282 F. Supp. 3d
at 802. The court found the lower bounds were supported by the dissolution data for the 15% HPMC formulation in Table 5. Id.
Actavis had argued that neither table provided adequate written description support because the data
listed were obtained using USP 1, but the court held
that the dissolution technique used was not relevant
because a person of skill would understand in the context of the patent that the inventors possessed the
claimed invention. The court relied on Nalpropion’s
expert’s testimony that a person of skill would understand that the inventors possessed the invention—
whether USP 2 or a substantially equivalent method
was used to measure it.
On appeal, Actavis repeats its argument that Tables
5 and 10 fail to provide adequate written description
support for the claimed dissolution profile because the
data in those tables were obtained using USP 1. According to Actavis, both inventor and expert testimony demonstrated that the two dissolution methods
would produce different results. Actavis further argues that the data in Table 5 cannot support the
claimed range because a person of ordinary skill in the
art would not appreciate that the 15% HPMC data
were relevant to the claims.
Nalpropion responds that there was no evidence
that the data in either table were obtained using USP
1. Even if USP 1 had been used, however, Nalpropion

11a
submits that a person of skill would understand the
inventors to have had possession of their invention “irrespective of whether they used USP 1 or USP 2 because those methods are ‘substantially equivalent.’”
Appellee’s Br. 22 (citing J.A. Decision, 282 F. Supp. 3d
at 801-02). We conclude that the district court did not
clearly err in finding that the inventors had possession of the invention consisting of treating overweight
and obesity with the stated amounts of bupropion.
It is important to take note of the peculiarity of
claim 11, which begins clearly enough by reciting a
method of treating overweight or obesity by carrying
out the specific, positive steps of administering a formulation of specific amounts of sustained-release naltrexone and bupropion in twice a day. The claim then
records the dissolution data resulting from that formulation.
But that dissolution profile for naltrexone as measured by USP 2 relates only to the measurement of resultant in vitro parameters, not to the operative steps
to treat overweight or obesity. And the district court
concluded, on the facts, that USP 1 and USP 2 would
be “substantially equivalent,” Decision, 282 F. Supp.
3d at 801 (citation omitted). Thus, it found that, irrespective of the method of measurement used, the specification shows that the inventors possessed the invention of treating overweight or obesity with naltrexone and bupropion in particular amounts and adequately described it. We conclude that this finding
does not present clear error.
As we explained in Ariad, the written description of
an invention “must ‘clearly allow persons of ordinary
skill in the art to recognize that [the inventor]

12a
invented what is claimed.’” 598 F.3d at 1351 (alteration in original) (quoting Vas-Cath Inc. v. Mahurkar,
935 F.2d 1555, 1563 (Fed. Cir. 1991) (Rich, J.) (citing
In re Gosteli, 872 F.2d 1008, 1012 (Fed. Cir. 1989))).
“In other words, the test for sufficiency is whether the
disclosure of the application relied upon reasonably
conveys to those skilled in the art that the inventor
had possession of the claimed subject matter as of the
filing date.” Id. (emphasis added). It is not necessary
that the exact terms of a claim be used in haec verba
in the specification, and equivalent language may be
sufficient.
To support their respective positions, both parties
point to evidence regarding whether a person of skill
would understand USP 1 and USP 2 to be “substantially equivalent.” But the court credited Nalpropion’s
expert, Dr. Treacy, as more credible over what it interpreted as untrustworthy, self-serving statements
by Actavis’s expert, Dr. Mayersohn. See Decision, 282
F. Supp. 3d at 801-02 (“It seems to me that Dr. Mayersohn’s theoretical opinion that the methods would
yield different results is at odds with his reliance on a
prior art reference using the basket method to argue
that claim 11, which specifies the paddle method, was
obvious.”). The district court performed precisely its
fact-finding function, weighing credibility of testimony. See Fed. R. Civ. P. 52(a)(6) (“Findings of fact,
whether based on oral or other evidence, must not be
set aside unless clearly erroneous, and the reviewing
court must give due regard to the trial court’s opportunity to judge the witnesses’ credibility.”). We do not
disturb this finding.
Having found USP 1 and USP 2 substantially equivalent, the district court found Table 5 and Table 10

13a
adequately supported the dissolution data ranges in
claim 11. Particularly, the court was not convinced
that relying on data from two tables presented a written description issue, noting that it found “nothing
odd or invalidating about the inventors looking to different tables of dissolution data and other places in
the specification to determine the ranges for the
claimed dissolution profile,” and finding that “multiple tests are necessarily required to establish a
range.” Decision, 282 F. Supp. 3d at 803. The court
relied on the 15% HPMC data in Table 5, crediting
both expert’s testimony that 15% HPMC formulations
were the first listed in the table in which a person of
skill in the art would observe “a sustained release profile.” Id. at 802 (quoting J.A. 11369:6-19, 11409:1017). The court also credited Dr. Treacy’s testimony
that the 99% dissolution at eight-hour data point was
supported by Table 10’s disclosure, discounting Dr.
Mayersohn’s view that the dissolution profile would
plateau and never reach the claimed 99% at eight
hours. Id. While Actavis may disagree with the
court’s findings, these findings are supported by the
record, and we do not disturb them. See Anderson,
470 U.S. at 573-74 (“If the district court’s account of
the evidence is plausible in light of the record viewed
in its entirety, the court of appeals may not reverse it
even though convinced that had it been sitting as the
trier of fact, it would have weighed the evidence differently.”).
The district court was convinced by its fact findings
that Actavis had not proven by clear and convincing
evidence that claim 11 of the ’195 patent is invalid for
lack of adequate written description. While as a general matter written description may not be satisfied

14a
by so-called equivalent disclosure, in this case, buttressed by the district court’s fact-finding, and where
the so-called equivalence relates only to resultant dissolution parameters rather than operative claim
steps, we affirm the district court’s conclusion. Rigidity should yield to flexible, sensible interpretation.
II. Obviousness
Actavis also challenges claim 1 of the ’111 patent
and claims 26 and 31 of the ’626 patent as obvious in
view of O’Malley and Jain. We begin by reviewing the
relevant references.
O’Malley is U.S. Patent 6,541,478, entitled “Smoking Cessation Treatments Using Naltrexone and Related Compounds.” J.A. 7912. O’Malley teaches that
weight gain is “[t]he significant problem” with smoking cessation and discloses use of opioid antagonists,
including naltrexone, alone or with other withdrawal
attenuating agents to minimize weight gain during
treatment. O’Malley col. 1 l. 59-62. Claim 1 of O’Malley is drawn to a method of treating a person for nicotine dependency and minimizing weight gain during
smoking cessation therapy comprising “administering
. . . an effective amount of naltrexone and another
compound selected from the group consisting of . . .
bupropion. . . .” Id. col. 12 ll. 30-37.
Jain2 is a research paper entitled “Bupropion SR vs.
Placebo for Weight Loss in Obese Patients with Depressive Symptoms.” J.A. 7171. Jain notes that
“[p]reliminary studies suggest that bupropion SR is
desh K. Jain et al., Bupropion SR vs. Placebo for Weight Loss
in Obese Patients with Depressive Symptoms, 10 OBESITY RES.
1049-56 (2002), J.A. 7171-78 (“Jain”).
2

15a
also an effective adjunct to diet for weight loss during
acute and long-term therapy in nondepressed patients” and “is associated with weight loss in overweight or obese depressed patients.” J.A. 7171. The
authors then describe their double-blind study where
sustained-release bupropion was administered in conjunction with a 500-kcal deficit diet. Sustained-release bupropion was found to be more effective than
placebo at reducing weight in obese patients with depressive symptoms.
Additional references provide context for the obviousness arguments in this case: (1) Anderson for bupropion, (2) Atkinson and Bernstein for naltrexone,
and (3) Dante for both naltrexone and its combination
with bupropion.
Anderson 3 discloses a 48-week double-blind, placebo-controlled trial where sustained-release bupropion was administered to obese adults. J.A. 7160.
Adjusted for placebo, subjects lost 2.2% and 5.5% of
net bodyweight with 300 mg/d and 400 mg/d of sustained-release bupropion, respectively. Id.
Atkinson 4 examined the effects of long-term naltrexone administration on body weight and obesity, administering naltrexone to 60 obese subjects over 8
weeks. J.A. 8948. Atkinson found a small but significant weight loss in women but no significant effect in
3 James Anderson et al., Bupropion SR Enhances Weight Loss:
A 48-Week Double-Blind, Placebo-Controlled Trial, 10 OBESITY
RES. 633-41 (2002), J.A. 7160-68 (“Anderson”).

Richard Atkinson et al., Effects of Long-Term Therapy with
Naltrexone on Body Weight in Obesity, 38 CLIN. PHARMACOL.
THER. 419-22 (1985), J.A. 8948-51 (“Atkinson”).
4

16a
men. Similarly, Bernstein 5 teaches a method for curbing carbohydrate cravings and overeating through
long-term administration of low-dose naltrexone.
Bernstein comments that the administration of naltrexone as described “would benefit . . . obese persons.”
J.A. 7181 ¶ 13.
Dante, U.S. Patent 5,817,665, teaches use of an opioid antagonist like naltrexone with serotonin or norepinephrine reuptake inhibitors to treat mental and
emotional disorders. Of note are Examples 2 and 3.
Example 2 describes a woman in her thirties who was
started on naltrexone without making any other
changes. Dante col. 6 ll. 16-17. She rapidly lost her
craving for sweets and lost thirty pounds in three
weeks. Id. col. 6. l. 18-19. Example 3 describes similar results in an obese man. Id. col. 6. ll. 32-56. While
these examples address only administration of naltrexone, the claims in Dante focus on its combination
with bupropion. Claim 1 of Dante is drawn to “[a]
method of treating depression comprising administering to a patient a pharmacologically effective dose of
an opioid antagonist” and a “nontricyclic antidepressant[].” Id. col. 8 ll. 19-30. Claim 7 requires that the
“nontricyclic antidepressant” be “selected from a
group” including bupropion. Id. col. 8. ll. 47-51.
Despite these references, the district court rejected
Actavis’s obviousness argument. According to the district court, the weight loss effects of bupropion were
known to be relatively modest at best, and prior art
references reported potential risks, including a potential for seizures. Because a person of skill would not
U.S. Patent Application 2002/0198227, J.A. 7179-85 (“Bernstein”).
5

17a
understand bupropion’s mechanism of action and because of its modest effectiveness, the court concluded
that a person of skill would not have found bupropion
to be an obvious starting point for further study. Decision, 282 F. Supp. 3d at 807.
The district court was also convinced that a person
of skill would not have understood naltrexone to be effective for weight loss. The court did not find Bernstein to disclose weight loss and read Atkinson’s disclosure of weight loss in women to be counterbalanced
by increased body weight in men. Id. at 808.
As for the combination of the two drugs, the district
court concluded that Dante and O’Malley did not
teach a person of ordinary skill that the combination
was effective for weight loss. Id. at 809. According to
the court, neither reference teaches anything about
weight loss or that naltrexone enhances bupropion’s
weight loss effects. The court likewise discounted the
disclosure in Jain because men experienced weight
gain. Id.
Finally, persuaded that the synergistic effect of the
combination was an unexpected result and that others
had failed to develop safe and effective weight loss
drugs, the district court held that secondary considerations supported a finding of nonobviousness. Id. at
810.
On appeal, the parties primarily dispute whether a
person of skill would have been motivated to combine
bupropion, as disclosed by Jain, and naltrexone, as
disclosed in O’Malley, to arrive at the claimed composition of the ’111 patent and the method of the ’626
patent with a reasonable expectation of success. Actavis argues that the district court incorrectly

18a
interpreted the prior art and discounted the fact that
both compounds were known to affect weight loss and
had been administered together for that purpose. Appellant’s Br. 56. In response, Nalpropion submits that
naltrexone was not known to affect weight loss, bupropion had safety concerns and yielded only modest
weight loss, and the combination had been used only
to treat depression or to minimize weight gain in
smoking cessation therapy. Nalpropion also argues
that naltrexone was not known to enhance bupropion’s effectiveness for weight loss.
Obviousness is a question of law, supported by underlying fact questions. In re Baxter Int’l, Inc. 678
F.3d 1357, 1361 (Fed. Cir. 2012). In evaluating obviousness, we consider the scope and content of the prior
art, differences between the prior art and the claims
at issue, the level of ordinary skill in the pertinent art,
and any secondary considerations. Graham v. John
Deere Co. of Kan. City, 383 U.S. 1, 17-18 (1966); see
also Apple Inc. v. Samsung Elecs. Co., 839 F.3d 1034,
1048 (Fed. Cir. 2016) (en banc) (“Objective indicia of
nonobviousness must be considered in every case
where present.”).
We agree with Actavis and conclude that the claims
at issue would have been obvious to a person of skill
in the art in view of O’Malley and Jain. The prior art
here discloses the claimed components of the composition claims and the steps of the method claims including the use claimed by the method.
The references teach that bupropion causes weight
loss. For example, Jain specifically teaches that sustained-release bupropion was “an effective adjunct to
diet for weight loss” in both non-depressed and

19a
depressed patients, J.A. 7171, and was well-tolerated,
J.A. 7177. This statement is confirmed by Anderson,
which discloses the results from a 48-week, doubleblind, placebo-controlled trial. J.A. 7160. Notably,
Anderson’s data indicate that administration of sustained-release bupropion yielded weight loss in nondepressed patients. J.A. 7161, 7165. Anderson’s reported weight loss was dependent on bupropion SR
dosage. J.A. 7165. Even Dr. Weber, a named inventor
of the ’626 and ’111 patents, confirmed that bupropion
had been considered safe and had weight loss effects.
J.A. 11028-29.
Likewise, the record indicates that naltrexone can
cause weight loss. Atkinson reports statistically significant weight loss in female obese patients and
states that “naltrexone or similar drugs may have a
role in the clinical treatment of obesity.” J.A. 8950.
While Atkinson reports weight loss only in women,
the claims are not limited to men, and Dante discloses
weight loss in two examples—for both a man and a
woman. In Example 2, an obese woman was started
on 25 mg of naltrexone and rapidly “lost her craving
for sweets and a weight loss effort which was stalled
took off. She lost thirty pounds in three weeks.”
Dante col. 6 ll. 16-19. Similarly, 25-50 mg of naltrexone was administered to an obese man in Example 3,
and he reported losing about 10 pounds a week and no
longer craved sweets. Id. col. 6 ll. 32-51. Bernstein
also discloses that naltrexone reduces carbohydrate
cravings and administration of it would benefit “obese
persons.” J.A. 7181 ¶ 13.
Given that both drugs had shown weight loss effects, we conclude that a person of ordinary skill
would have been motivated to combine them. In fact,

20a
such persons did so. O’Malley teaches a combination
of effective amounts of sustained-release bupropion
and naltrexone for minimizing weight gain. Likewise,
Dante teaches use of an opioid antagonist, preferably
naltrexone, and an antidepressant, including bupropion, for decreasing sugar cravings, noting that
naltrexone administration alone led reduced sugar
cravings and weight loss in two examples. A person
of skill would have understood that a combination for
reducing weight gain and decreasing carbohydrate
cravings may affect weight loss as well. See, e.g., J.A.
7156 (speculating that success of a weight-loss treatment could be linked to beneficial effects on “food cravings”); 7172 (explaining that patient hunger is relevant to efficacy and outcomes of a weight-loss treatment); 7181 (explaining “obese persons” would benefit
from a method for reducing carbohydrate cravings).
Nalpropion suggests that, even in view of these references, a person of skill would not have been motivated to develop bupropion for weight loss (1) because
bupropion yielded only a “paltry 2.8% placebo-adjusted weight loss,” which was too insignificant to obtain FDA approval as a weight loss drug, Appellee’s
Br. 41, (2) because bupropion carried a seizure risk,
and (3) because its mechanism of action was unknown.
We are not persuaded. Nalpropion argues that bupropion does not possess sufficient weight loss efficacy
to obtain FDA approval by itself. But, while bupropion alone may not have been entitled to FDA approval as a weight-loss treatment, “[t]here is no requirement in patent law that the person of ordinary
skill be motivated to develop the claimed invention
based on a rationale that forms the basis for FDA

21a
approval.” Allergan, Inc. v. Sandoz Inc., 726 F.3d
1286, 1292 (Fed. Cir. 2013). “Motivation to combine
may be found in many different places and forms; it
cannot be limited to those reasons the FDA sees fit to
consider in approving drug applications.” Id. Instead,
“[t]he court should consider a range of real-world facts
to determine ‘whether there was an apparent reason
to combine the known elements in the fashion claimed
by the patent at issue.’” Arctic Cat Inc. v. Bombardier
Recreational Prods. Inc., 876 F.3d 1350, 1359 (Fed.
Cir. 2017) (quoting Intercontinental Great Brands
LLC v. Kellogg N. Am. Co., 869 F.3d 1336, 1344 (Fed.
Cir. 2017), cert. denied, 139 S. Ct. 143 (2018)). The
inescapable, real-world fact here is that people of skill
in the art did combine bupropion and naltrexone for
reductions in weight gain and reduced cravings—
goals closely relevant to weight loss. Contrary to Nalpropion’s view, persons of skill did combine the two
drugs even without understanding bupropion’s mechanism of action but with an understanding that bupropion was well-tolerated and safe as an antidepressant. See J.A. 7165 (“The precise mechanism for bupropion SR that is responsible for effects on weight
loss is unknown.”); see also J.A. 7157 (same). Thus,
we conclude that skilled artisans would have been motivated to combine the two drugs for weight loss with
a reasonable expectation of success.
We next consider the specific language of the claims
in relation to the prior art. Claim 1 of the ’111 patent
requires (1) a sustained-release formulation of bupropion or a pharmaceutically acceptable salt thereof
in an amount effective to induce weight loss in an individual; and (2) a sustained- release formulation of
naltrexone or a pharmaceutically acceptable salt

22a
thereof in an amount effective to enhance the weight
loss effect of the bupropion or salt thereof; (3) in a single oral dosage form fixed combination. 6 Jain discloses
300 and 400 mg per day dosages of sustained-release
bupropion as facilitating weight loss, meeting the first
limitation. O’Malley discloses a sustained-release formulation of naltrexone administered with bupropion
as a “withdrawal attenuating agent,” O’Malley col. 2
ll. 59-66, that “enhance[s] the efficacy of the nicotine
dependency treatment,” id. col. 4 ll. 25-33, a treatment
designed to minimize weight gain, id. col. 8 ll. 45-48.
The naltrexone dosages in O’Malley—from 12.5 mg to
150 mg—are amounts effective to enhance the weight
loss effects of bupropion. Id. col. 5 ll. 46-50. 7 O’Malley
also discloses a single oral dosage form of bupropion
and naltrexone.
Next, we turn to claims 26 and 31 of the ’626 patent.
Claim 25, from which both claims 26 and 31 depend,
requires administering a weight-loss effective amount
of a first and a second compound to treat an individual
suffering from overweight or obesity for that condition. The first and second compounds are bupropion
6 Actavis argues that the preamble, which recites “a composition for affecting weight loss,” is not limiting, while Nalpropion
argues that it is limiting because it recites the fundamental purpose of the invention. Appellee’s Br. 49. Because neither party
asked the district court to construe the preamble, these arguments are waived. Interactive Gift Exp., Inc. v. Compuserve Inc.,
256 F.3d 1323, 1346 (Fed. Cir. 2001).

Claim 2 of the ’111 patent depends from claim 1, and thus
requires an amount of naltrexone effective to enhance the weight
loss effect of bupropion. That claim is drawn to about 5 mg to
about 50 mg of naltrexone. Thus, about 5 mg to 50 mg of naltrexone constitutes an amount effective to enhance the effect of
bupropion. See 35 U.S.C. § 112 ¶ 4 (2010).
7

23a
and naltrexone, and the weight loss effects of the compounds are “enhanced” compared to the administration of either compound alone. Claim 26 adds the requirement that the two drugs be administered together, and claim 31 requires that at least one of the
drugs is in a sustained-release formulation and that
they are administrated in a single oral dosage form.
As with the ’111 patent, the combination of O’Malley
and Jain meets these requirements, with Jain disclosing effective amounts of sustained-release bupropion
for weight loss and O’Malley disclosing its combination with naltrexone in a single dosage form.
Having concluded that every limitation in the
claims at issue was met by O’Malley and Jain, we consider objective indicia of nonobviousness. Nalpropion
argues that many others tried and failed to find a combination effective for weight loss and that the claimed
combination exhibited unexpected results. But the inventors only combined two drugs known to affect
weight loss. Both drugs were known to affect weight
loss, and combining them for this known purpose as
claimed in the patents yields no unpredictable result.
See KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 416
(2007) (“The combination of familiar elements according to known methods is likely to be obvious when it
does no more than yield predictable results.”). The result—a combination drug that affected weight loss—
could not have been unexpected. To the extent Nalpropion maintains that the failure of others supports
a finding of nonobviousness, that factor alone cannot
overcome the clear record in this case that the combination of the two drugs was known and that both
drugs would have been understood to be useful for this
purpose.

24a
Because we conclude that claim 1 of the ’111 patent
and claims 26 and 31 of the ’626 patent would have
been obvious to a person of skill in the art in view of
O’Malley and Jain, we reverse the district court’s
holding that these claims are not invalid.
Finally, Nalpropion filed a motion to strike Actavis’s
reply brief. Plaintiff-Appellee Nalpropion Pharms.
Inc.’s Motion to Strike, Nalpropion Pharm. Inc. v. Actavis Labs. FL, Inc., No. 18-1221 (Fed. Cir. Dec. 27,
2018), ECF No. 54. We deny this motion as moot.
CONCLUSION
We have considered both parties’ remaining arguments and find them unpersuasive. For the reasons
detailed above, we hold that the district court did not
clearly err in finding claim 11 of the ’195 patent not
invalid for lack of adequate written description and
affirm its judgment in this respect. We reverse, however, the court’s judgment that claims 26 and 31 of the
’626 patent and claim 1 of the ’111 patent are not invalid.
AFFIRMED-IN-PART AND REVERSED-INPART
COSTS
No costs.

25a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
NALPROPION PHARMACEUTICALS, INC.,
Plaintiff-Appellee
v.
ACTAVIS LABORATORIES FL, INC.,
Defendant-Appellant
2018-1221
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00451-RGA, Judge
Richard G. Andrews.
PROST, Chief Judge, dissenting in part.
Today, the majority adds what appears to me to be
a new rule to this court’s long-standing written description jurisprudence. It holds that a “substantially
equivalent” disclosure may satisfy the written description requirement when the relevant claim limitation recites only “resultant dissolution parameters rather than operative claim steps.” Majority Op. 12. Respectfully, that is not the law. Premised on my understanding of this court’s precedent, I would find claim
11 of the ’195 patent invalid for lack of adequate written description. Consequently, I must dissent from
Section I of the majority’s opinion.

26a
The disputed limitation is the wherein clause directed to the dissolution profile for sustained-release
naltrexone, as measured by the USP Apparatus 2
Paddle Method (“USP 2”):
wherein said sustained-release formulation of
naltrexone has an in vitro naltrexone dissolution profile in a dissolution test of USP Apparatus 2 Paddle Method at 100 rpm in a dissolution medium of water at 37° C. of
a) between 39% and 70% of naltrexone released in one hour;
b) between 62% and 90% of naltrexone released in two hours; and
c) at least 99% in 8 hours . . . .
’195 patent col. 31 ll. 11-21 (hereinafter “the USP 2
clause”).
The majority and I agree that the essence of the
claimed invention is “a method of treating overweight
or obesity.” Majority Op. 10. We also agree that claim
11 includes one operative step, which relates to orally
administering, among other things, a specific amount
of sustained- release naltrexone formulation. Id.
I part ways with the majority, however, for at least
three reasons. First, the USP 2 clause is limiting.
Second, the majority’s “substantially equivalent” rule
is inconsistent with this court’s precedent. Third, the
district court clearly erred in finding that the ’195 patent’s written description includes a disclosure “substantially equivalent” to USP 2.
As to the limiting effect of the USP 2 clause, the majority determines that the clause is nonlimiting

27a
because it relates only to the measurement of dissolution data resulting from the oral administration step.
See Majority Op. 10. This conclusion is wrong. A
clause is limiting if, as here, the clause “relate[s] back
to and clarif[ies] what is required by the count.” Griffin v. Bertina, 285 F.3d 1029, 1033 (Fed. Cir. 2002).
Indeed, the USP 2 clause does not “merely state the
inherent result of performing the manipulative steps.”
Id.; compare Bristol-Myers Squibb Co. v. Ben Venue
Labs., Inc., 246 F.3d 1368, 1375 (Fed. Cir. 2001) (concluding a statement directed to the intended result of
administering express dosage amounts to be nonlimiting where the result “does not change those amounts
or otherwise limit the claim”). Rather, the USP 2
clause “is part of the process itself.” Hoffer v. Microsoft Corp., 405 F.3d 1326, 1329-30 (Fed. Cir. 2005).
Specifically, the USP 2 clause clarifies what the
claimed invention requires by reciting a property of
the claimed naltrexone formulation necessary to
“treat[] overweight or obesity.” ’195 patent col. 31 ll.
5-6. Claim 11 requires the sustained-release naltrexone to be formulated such that it obtains the recited
dissolution profile as particularly measured by USP
2—not as generally measured by any method. The
’195 patent disclosure confirms this view.
According to the ’195 patent, oral dosage forms of
sustained-release naltrexone “comprise naltrexone
and a sustained-release carrier.” Id. col. 13 ll. 1-2.
Sustained-release carriers, such as hydroxypropylmethyl cellulose (“HPMC”) or polyethylene oxide (“PolyOx”), are mixed with naltrexone to effect sustained, as
opposed to immediate, release. Id. col. 13 ll. 1-12, col.
16 ll. 8-26. The amount of sustained-release carrier
determines the in vitro release rate (dissolution)

28a
profile of the naltrexone formulation. Id. col. 13 ll. 3545. Thus, the dissolution profile, as measured using
USP 2, reflects the amount of sustained-release carrier included in the orally administered naltrexone
formulation.
The prosecution history also evidences the material
role of the USP 2 clause. In response to an obviousness rejection during prosecution, Applicant argued
that, having used a different method, there was no basis to conclude that the prior art inherently disclosed
a formulation that falls within the claimed dissolution
profile. J.A. 7039 (Prosecution History, Applicant’s
Remarks). Applicant specifically emphasized the significance of the claimed dissolution profile as performed “under the specific dissolution test conditions
recited in the . . . claims.” Id.; see also Hoffer, 405 F.3d
at 1329-30 (stating that a clause cannot be ignored if
it is material to patentability).
Applicant did not stop there. Applicant further
stated that “there are sustained-release [naltrexone]
formulations which fall outside the scope of the . . .
claimed dissolution profiles.” J.A. 7039. There is no
evidence to the contrary in the record. Even during
litigation, neither party identified any evidence that a
32 mg dose of any sustained-release naltrexone formulation necessarily contains an amount of sustained-release carrier that inherently generates the
claimed USP 2 dissolution profile measurement.
Moreover, and most tellingly, the parties do not
even dispute that the USP 2 clause is limiting. Indeed, Appellee expressly agrees that the USP 2 clause
is limiting for purposes of infringement. Appellee’s
sole written description argument is that the ’195

29a
patent’s disclosure of USP Apparatus 1 Basket
Method (“USP 1”) provides adequate written description for the USP 2 clause. See Oral Arg. at 15:0933, No. 2018-1221, http://www.cafc.uscourts.gov/oralargument-recordings (“[F]or purposes of infringement
you need to use [USP 2]. But if you look in terms of
the 112 issues, . . . the patent is clear that USP 1 and
USP 2 are equivalent to one other.”). By concluding
that the USP 2 clause is nonlimiting, the majority has
sua sponte addressed a claim construction argument
never presented to the district court.
To the extent that the majority determined that construing the USP 2 clause was necessary to resolve the
written description dispute, it should have adopted
the district court’s undisputed, implied construction,
which treated the clause as limiting. 1 Applied Med.
Res. Corp. v. U.S. Surgical Corp., 448 F.3d 1324, 1333
(Fed. Cir. 2006) (explaining that this court has “decline[d] to construe [a claim term] in the first instance
and appl[ied] the undisputed claim construction
adopted by the district court”).
As the USP 2 clause is limiting and the original patent disclosure fails to literally or inherently disclose
it, the written description inquiry should end there.
PowerOasis, Inc. v. T-Mobile USA, Inc., 522 F.3d
1299, 1306 (Fed. Cir. 2008) (explaining that to satisfy
Although the district court did not explicitly articulate a construction of the USP 2 clause, a reading of its opinion compels
the conclusion that it construed the USP 2 clause to have limiting
effect. E.g., Orexigen Therapeutics, Inc. v. Actavis Labs. FL, Inc.,
282 F. Supp. 3d 793, 801 (D. Del. 2017) (“Claim 11 includes the
limitation that the naltrexone have a specific dissolution profile
measured ‘in a dissolution test of [USP 2] . . . .”’).
1

30a
the written description requirement, “the written description [must] actually or inherently disclose the
claim element”). But it does not. After determining
that the USP 2 clause is nonlimiting, the majority
adopts Appellee’s view that disclosure of USP 1 can
provide adequate written description support for the
USP 2 clause because the two testing methods are
“substantially equivalent.” Majority Op. 12; see also
id. at 10-11.
Such a conclusion problematically articulates a new
rule for written description. According to the majority, written description for nonlimiting clauses may be
satisfied by disclosure that is “substantially equivalent” even though the same disclosure would not be
sufficient for limiting clauses. This rule, however narrow, is at odds with this court’s precedent.
Written description requires sufficient disclosure to
“clearly allow persons of ordinary skill in the art to
recognize that the inventor invented what is claimed.”
Ariad Pharm., Inc. v. Eli Lilly and Co., 598 F.3d 1336,
1351 (Fed. Cir. 2010) (en banc) (brackets omitted). A
substantially equivalent disclosure, even if it would
render the claim limitation obvious, cannot satisfy the
written description requirement. See id. at 1352 (“[A]
description that merely renders the invention obvious
does not satisfy the requirement.”); Lockwood v. Am.
Airlines, Inc., 107 F.3d 1565, 1572 (Fed. Cir. 1997)
(“The question is not whether a claimed invention is
an obvious variant of that which is disclosed in the
specification.”).
In any event, even if the majority’s “substantially
equivalent” rule was appropriate, I would still disagree with its affirmance on the written description

31a
issue. In finding that USP 1 and USP 2 are substantially equivalent, the majority overlooks the district
court’s clear error. Not a shred of record evidence supports this fact-finding. And other record evidence refutes it.
The record contains no evidence showing that the
two methods produce the same results. Oral Arg. at
24:04-12 (Q: Do you have positive tests, confirmative
testing saying [USP 1 and USP 2] are the same thing?
A: No. Neither side submitted any testing data on
that point.). Indeed, Appellee’s expert, Dr. Treacy,
testified that he had formed no opinion about any differences between USP 1 and USP 2. See J.A.
11410:24-11411:2.
Instead, the record includes evidence that the two
methods do not produce the same results. First, Dr.
Soltero, one of the inventors named on the ’195 patent,
testified that USP 1 and USP 2 results are not comparable. He confirmed that “just because you got a certain profile [using] a USP 1 method, you would not
necessarily expect that you would get the same release profile [using] USP 2.” See J.A. 11319:1711321:12. The trial court’s opinion does not even mention this testimony.
Second, Appellant’s expert, Dr. Mayersohn, opined
that a skilled artisan would not have understood the
two methods to yield the same results. J.A. 11356:2211357:3. The district court discounted Dr. Mayersohn’s testimony, finding that his “theoretical opinion that the methods would yield different results is
at odds with his reliance on a prior art reference using
[USP 1] to argue that claim 11, which specifies [USP

32a
2], was obvious.” See Majority Op. 11 (citing Orexigen,
282 F. Supp. 3d at 801-02).
The standard for obviousness is not, however, the
same as the standard for written description. Based
on our precedent, teachings related to USP 1 may render methods using USP 2 obvious, but Dr. Mayersohn’s testimony that the two would not produce the
same results is nonetheless relevant for written description. See Ariad, 598 F.3d at 1352; Lockwood, 107
F.3d at 1572.
In a record devoid of evidence showing that USP 1
and USP 2 are “substantially equivalent,” the district
court clearly erred in disregarding Dr. Soltero’s testimony and in discounting Dr. Mayersohn’s, which indicate that they are not substantially equivalent.
For the foregoing reasons, I respectfully dissent
from Section I.

33a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
OREXIGEN THERAPEUTICS, INC.,
Plaintiff,
v.
ACTAVIS LABORATORIES FL, INC.
Defendant.

Civil Action No. 15-451RGA

TRIAL OPINION
Mary B. Graham, Esq., MORRIS NICHOLS ARSHT
& TUNNELL LLP, Wilmington, DE; Rodger D. Smith
II, Esq., MORRIS NICHOLS ARSHT & TUNNELL
LLP, Wilmington, DE; Stephen J. Kraftschik, Esq.,
MORRIS NICHOLS ARSHT & TUNNELL LLP, Wilmington, DE; Chad J. Peterman, Esq., PAUL HASTINGS LLP, New York, NY; Bruce M. Wexler, Esq.,
PAUL HASTINGS LLP, New York, NY; Simon F.
Kung, Esq., PAUL HASTINGS LLP, New York, NY;
Michael F. Wemo, Esq., PAUL HASTINGS LLP, New
York, NY.
Attorneys for Plaintiff.
Melanie K. Sharp, Esq., YOUNG CONAWAY STARGATT & TAYLOR LLP, Wilmington, DE; James L.
Higgins, Esq., YOUNG CONAWAY STARGATT &
TAYLOR LLP, Wilmington, DE; Robert M. Vrana,
Esq., YOUNG CONAWAY STARGATT & TAYLOR
LLP, Wilmington, DE; Scott J. Bomstein, Esq.,
GREENBERG TRAURIG, LLP, New York, NY;

34a
Richard C. Pettus, Esq., GREENBERG TRAURIG,
LLP, New York, NY; Jonathan D. Ball, Esq., GREENBERG TRAURIG, LLP, New York, NY; Justin A. MacLean, Esq., GREENBERG TRAURIG, LLP, New
York, NY.
Attorneys for Defendant.
October 13, 2017
/s/ Richard G. Andrews
ANDREWS, U.S. DISTRICT JUDGE:
Plaintiff brought this patent infringement action on
June 3, 2015, alleging that Defendant had infringed
seven of Plaintiff’s patents by filing Abbreviated New
Drug Application (“ANDA”) No. 208043 seeking to enter the market with a generic version of Plaintiff’s
Contrave product. (D.I. 1). On April 15, 2016, Plaintiff filed a First Amended Complaint alleging infringement of four patents. (D.I. 47). Prior to trial, Plaintiff
withdrew one of the four patents (see D.I. 182), leaving
three patents-in-suit: U.S. Patent Nos. 7,462,626 (“the
’626 patent”), 7,375,111 (“the ’111 patent”), and
8,916,195 (“the ’195 patent”). The Court held a three
day bench trial on June 5-7, 2017. (D.I. 178, 179, 180)
(“Tr.”).
Plaintiff’s Contrave product is approved by the Food
and Drug Administration (“FDA”) for “chronic weight
management in adults” who are obese or overweight
and who have “at least one weight-related comorbidity,” such as type 2 diabetes or hypertension. (D.I.
117-1 at 5, ¶ 4). Contrave is formulated as extendedrelease tablets with the active ingredients naltrexone
hydrochloride and bupropion hydrochloride. (Id., ¶ 3).

35a
Bupropion was first approved by the FDA in 1996
for use as an antidepressant and in 1997 for use in
smoking cessation treatment. (Tr. 422:11-13). Bupropion was known to have weight loss effects as early
as 1995. (Tr. 422:18-424:11). The efficacy and safety
of bupropion for weight loss had been studied extensively prior to 2003, the priority date for the invention
claimed in the patents-in-suit. (Tr. 425:10-431:23).
Naltrexone is an opioid agonist that is FDA approved
for treating drug addiction. (Tr. 432:112-433:10). At
least as early as 2002, naltrexone was known to reduce carbohydrate cravings in patients with diabetes.
(Tr. 433:21-434:19).
The ’626 patent is directed to methods of treating
overweight or obesity using a combination of naltrexone and bupropion. Plaintiff asserts that Defendant
induces infringement of dependent claims 2, 15, 26,
and 31 of the ’626 patent. Claims 2 and 15 depend
from independent claim 1, which reads:
1. A method of treating overweight or obesity,
comprising diagnosing an individual as
suffering from overweight or obesity by determining said individual has a body mass
index of at least 25 kg/m2, and treating
said overweight or obesity by administering to said individual a first compound and
a second compound in order to treat said
overweight or obesity, wherein said second
compound is bupropion or a pharmaceutically acceptable salt thereof in an amount
effective to induce weight loss in said individual, and said first compound is naltrexone or a pharmaceutically acceptable salt
thereof in an amount effective to enhance

36a
weight loss activity of said bupropion or a
pharmaceutically acceptable salt thereof.
(’626 patent, claim 1). Dependent claim 2 adds the
limitation that the naltrexone and bupropion “are administered together.” Dependent claim 15 adds the
limitation that the naltrexone and bupropion “are administered in a single oral dosage form.”
Claim 26 depends from independent claim 25, which
reads:
25. A method of treating overweight or obesity, comprising administering a weight
loss effective amount of a first and second
compound to an individual who has been
diagnosed as suffering from overweight or
obesity in order to treat said overweight or
obesity, wherein said first compound is bupropion, or a pharmaceutically acceptable
salt thereof, and said second compound is
naltrexone, or a pharmaceutically acceptable salt thereof, and wherein the weight
loss activity of said first and second compounds is enhanced compared to the administration of the same amount of either
compound alone.
(’626 patent, claim 25). Claim 26 adds the limitation
that the naltrexone and bupropion “are administered
together.” Asserted claim 31 depends from claim 30,
which is not asserted and which depends from claim
25. Claim 30 adds the limitation that the naltrexone
and bupropion “are in a sustained-release formulation.” Asserted claim 31 adds the limitation that the
naltrexone and bupropion “are administered in a single oral dosage form.”

37a
The ’111 patent is directed to compositions for use
in weight loss treatments comprising a combination of
sustained release formulations of bupropion and naltrexone. Plaintiff asserts that Defendant directly infringes claim 1 of the ’111 patent. Claim 1 reads:
1. A composition for affecting weight loss
comprising:
(a) a sustained release formulation of bupropion or a pharmaceutically acceptable salt thereof in an amount effective to
induce weight loss in an individual; and
(b) a sustained release formulation of naltrexone or a pharmaceutically acceptable salt thereof in an amount effective to
enhance the weight loss effect of the bupropion or salt thereof;
wherein said composition is in a single oral
dosage form fixed combination.
(’111 patent, claim 1).
The ’195 patent is directed to methods of treating
overweight or obesity using a combination of naltrexone and bupropion. Plaintiff asserts that Defendant
directly infringes claim 11 of the ’195 patent. Claim
11 reads:
11. A method of treating overweight or obesity
having reduced adverse effects comprising
orally administering daily about 32 mg of
naltrexone and about 360 mg of bupropion,
or pharmaceutically acceptable salts
thereof, to a person in need thereof,
wherein the bupropion or pharmaceutically
acceptable
salt
thereof
is

38a
administered as a sustained-release formulation, wherein the naltrexone or pharmaceutically acceptable salt thereof is administered as a sustained-release formulation,
and wherein said sustained-release formulation of naltrexone has an in vitro naltrexone dissolution profile in a dissolution test
of USP Apparatus 2 Paddle Method at 100
rpm in a dissolution medium of water at
37° C. of:
a) between 39% and 70% of naltrexone released in one hour;
b) between 62% and 90% of naltrexone released in two hours; and
c) at least 99% in 8 hours;
wherein about 16 mg of said sustained-release formulation of naltrexone or a pharmaceutically acceptable salt thereof is administered twice daily, and about 180 mg of
said sustained-release formulation of bupropion or a pharmaceutically acceptable
salt thereof is administered twice daily.
(’195 patent, claim 11).
Defendant contends that it does not infringe any of
the asserted claims. Defendant also argues that claim
11 of the ’195 patent is invalid for lack of written description and all asserted claims of the ’111 and ’626
patents are invalid as obvious in view of the prior art.
I.

MOTION TO STRIKE THE GADDE FAX

Plaintiff moves to strike Defendant’s exhibits DTX48 and DTX-180, a fax sent by Dr. Kishore Gadde to

39a
Orexigen on November 19, 2003 (“Gadde Fax” or
“Fax”), as inadmissible hearsay. (D.I. 155 at 2). The
Fax consists of a table which contains brief descriptions of patients Dr. Gadde treated for obesity in 1997
and 2000. (DTX-180 at GADDE0000010). According
to the table, Dr. Gadde treated four patients in 1997
with a combination of fluoxetine and naltrexone and
two patients in 2000 with a combination of bupropion
and naltrexone. (Id.). Dr. Gadde testified at trial that
he prepared the table in 2003 “by reviewing the patient charts.” (Tr. 715:16-18, 768:19-21). The original
patient charts were not produced as evidence in this
case. (D.I. 155 at 3).
Defendant argues that the Gadde Fax is not hearsay
because it qualifies as an adoptive admission under
Federal Rule of Evidence 801(d)(2)(B). 1 (D.I. 159 at 2;
Tr. 722:10-12). According to Defendant, Plaintiff
shared the data in the Gadde Fax with the FDA to
help demonstrate safety and efficacy of the combination of bupropion and naltrexone. (D.I. 159 at 2; Tr.
722:12-19). As support for this contention, Defendant
produced a clinical study report submitted to the FDA
In post-trial briefing, Defendant also argued that the Gadde
Fax is admissible under Rule 801(d)(1)(B). (D.I. 159 at 6-7). This
argument fails at least because Defendant seeks to admit the
Gadde Fax itself as substantive evidence, rather than seeking to
admit the Fax as a prior statement consistent with Dr. Gadde’s
testimony in court. Dr. Gadde testified that he had no contemporaneous recollection of the facts of the cases reported on in the
Fax. (Tr. 789:6-14). In fact, Dr. Gadde testified directly from the
Fax rather than from his independent recollection of the facts
and events. (Tr. 715:16-719:10). Defendant cannot invoke Rule
801(d)(1)(B) to gain admission of a prior statement that is not
actually offered as a prior consistent statement to in-court testimony.
1

40a
as part of Orexigen’s Investigational New Drug
(“IND”) Application for fluoxetine or bupropion SR
in combination with naltrexone. (DTX-154). In relevant part, the report stated, “When naltrexone was
added to fluoxetine or bupropion SR therapy, additional weight loss was observed in 2 of 6 patients;
no adverse events other than nausea were reported
(K Gadde, personal communication).” (DTX-154 at
OREXC0748915).
During trial I found the Gadde Fax to be admissible
as an adoptive admission, but allowed the parties to
present additional arguments about its admissibility
in post-trial briefing. (Tr. 731:1-4). I found that, while
“not an absolute certainty,” it was “a fair inference”
that the paragraph Defendant pointed to was referring to the chart in the Gadde Fax. (Tr. 730:11-14). I
also stated that it seemed clear that the paragraph’s
reference to additional weight loss referred to patients
2 and 3 on the fax, which are patients who received
the fluoxetine/naltrexone combination therapy. (Tr.
728:15-729:2).
My opinion that the Gadde Fax is admissible as an
adoptive admission has not changed. I think there is
sufficient detail in the FDA report to support the inference that the “personal communication” referred to
was the Fax. I disagree with Plaintiff’s contention
that this paragraph was merely a reference to the Fax
and a repetition of the hearsay contained in the Fax.
(D.I. 155 at 5-6). Orexigen presented this information
to the FDA in support of its IND Application. I find it
difficult to believe Orexigen would have done so if it
did not believe in the trustworthiness of the contents
of the communication. As to Plaintiff’s argument that
Defendant must show that each statement in the Fax

41a
was separately adopted (D.I. 155 at 7), I think this is
satisfied by the statement that “additional weight loss
was observed in 2 of 6 patients.” It seems to me that
this refers to the six patients reported in the Fax and
I think the only reasonable interpretation is that the
Fax was adopted in its entirety.
This does not mean, however, that the Gadde Fax is
admissible as substantive evidence of anything that
Dr. Gadde did in 1997 or 2000. The parties agreed
that any allegations of public use by Dr. Gadde in
2000 would be subject to the corroboration requirement for inventor testimony. (Tr. 950:17-23). Defendant stated at trial that the purpose of Dr. Gadde’s testimony and the Gadde Fax was not to prove prior use,
but to prove secondary considerations, such as motivation to combine. (Tr. 951:13-17). Defendant argued
that motivation to combine was not subject to the corroboration requirement. (Tr. 954:17-955:5). As I discuss below, I disagree. The Gadde Fax is not admissible to show that Dr. Gadde treated patients with the
combinations of drugs reported in the Fax in 1997 and
2000, or as evidence of anything that occurred prior to
the date the Fax was prepared.
For the foregoing reasons, Plaintiff’s Motion to
Strike (D.I. 155) is denied. The Gadde Fax is admissible for the limited purpose of showing that Dr.
Gadde shared the data reported in the Fax with Orexigen in 2003.
II.

WRITTEN DESCRIPTION

The written description requirement contained in
35 U.S.C. § 112, ¶ 1 requires that the specification
“clearly allow persons of ordinary skill in the art to
recognize that [the inventor] invented what is

42a
claimed.” Ariad Pharm., Inc., v. Eli Lilly & Co., 598
F.3d 1336, 1351 (Fed. Cir. 2010) (en banc) (alteration
in original). “In other words, the test for sufficiency is
whether the disclosure of the application relied upon
reasonably conveys to those skilled in the art that the
inventor had possession of the claimed subject matter
as of the filing date.” Id. “A party must prove invalidity for lack of written description by clear and convincing evidence.” Vasudevan Software, Inc. v. MicroStrategy, Inc., 782 F.3d 671, 682 (Fed. Cir. 2015).
Defendant argues that claim 11 of the ’195 patent is
invalid for lack of written description because the
ranges given for the claimed dissolution profile “were
improperly cobbled together” and were measured using a different method than that required by the
claim. (D.I. 162 at 10). Specifically, Defendant argues
that the lower bounds of the dissolution ranges at one
and two hours recited in the claim were not obtained
using the USP Apparatus 2 Paddle Method required
by the claim. (Id. at 10). Defendant further argues
that there is no evidence in the specification as to
which method was used to obtain the 99% dissolution
profile stated in the claim for the eight hour range.
(Id.). Finally, Defendant argues that the upper
bounds of the one and two hour ranges were picked
from “a boilerplate paragraph without any sensible
reason or industry custom/practice for their random
selection.” (Id.).
Plaintiff responds that simply because the claims
draw support from different parts of the specification
does not mean that a person of ordinary skill would
not believe that the inventor was in possession of the
invention. (D.I. 164 at 30). Plaintiff also argues that
there is no legal requirement that all claim limitations

43a
be set out in a single place in the specification. (Id. at
31). Plaintiff points to the prosecution history, which
shows the applicant cited to specific portions of the
specification as support for claim 11, resulting in a notice of allowance for this claim. (Id.).
Claim 11 of the ’195 patent claims a method of treating overweight or obesity using a sustained released
formulation of bupropion and naltrexone. Claim 11
includes the limitation that the naltrexone have a specific dissolution profile measured “in a dissolution test
of USP Apparatus 2 Paddle Method at 100 rpm in a
dissolution medium of water at 37°C.” The dissolution
profile recited requires “a) between 39% and 70% of
naltrexone released in one hour; b) between 62% and
90% of naltrexone released in two hours; and c) at
least 99% in 8 hours.”
As support for the claimed dissolution profile, Plaintiff points to Table 10 in the specification. (Id. at 32).
Table 10 provides dissolution data for naltrexone in
one embodiment described in the specification. (’195
patent at 19:60-67). Table 10 indicates that, after one
hour, 67% of naltrexone was released, after two hours,
85% of naltrexone was released, and after 8 hours,
99% of naltrexone was released. (’195 patent at 20:110). These values fall squarely within the ranges in
claim 11. Defendant argues that this data is not relevant as it was not obtained using the USP Apparatus
2 method. (D.I. 162 at 11). In response, Plaintiff
points to a portion of the specification that it argues
constitutes a definition of a “standard dissolution
test.” (D.I. 164 at 32; ’195 patent at 6:49:55).
I agree with Plaintiff that the specification would
indicate to a person of ordinary skill that all of the

44a
dissolution data reported in the patent was obtained
“using Apparatus 2 . . . at a spindle rotation speed of
100 rpm and a dissolution medium of water, at 37° C.,
or other test conditions substantially equivalent
thereto.” (’195 patent at 6:52-55). Plaintiff’s expert,
Dr. Treacy, testified that a person of ordinary skill
would recognize that the inventors had possession of
an embodiment representative of the invention, as described in Table 10. (Tr. 660:21-661:1). Dr. Treacy
further testified that a person of ordinary skill “would
find reasonable support for the claim limitations in
the written description,” specifically the upper and
lower limits for each of the ranges. (Tr. 660:12-20).
Dr. Treacy also opined that, in the context of the patent, a person of ordinary skill would understand that
the inventors had possession of the claimed invention
regardless of whether the USP Apparatus 2 method or
a “substantially equivalent” method were used. (Tr.
663:3-9).
Defendant’s expert, Dr. Mayersohn, testified at trial
that the paddle method and the USP Apparatus 1 basket method were different in that the hydrodynamics
were different and that a person of ordinary skill
would expect the two methods to yield different results. (Tr. 602:23-604:20). Dr. Mayersohn did not,
however, perform any actual tests on the tablets
claimed in this patent. (Tr. 640:19-22). Furthermore,
in his expert report, Dr. Mayersohn provided an opinion on obviousness for this claim in which he relied on
a prior art reference that used the USP Apparatus 1
basket method. (Tr. 637:8-640:13). It seems to me
that Dr. Mayersohn’s theoretical opinion that the
methods would yield different results is at odds with
his reliance on a prior art reference using the basket

45a
method to argue that claim 11, which specifies the
paddle method, was obvious.
I do not think it matters whether the two methods
would yield exactly the same results. I find credible
Dr. Treacy’s testimony that a person of ordinary skill
would understand, in the context of the patent, that
the inventors possessed the claimed invention. The
embodiments disclosed in a patent are intended to be
exemplary and it is clear to me that the inventors possessed at least one embodiment that falls squarely
within the claimed ranges, as evidenced by Table 10.
Furthermore, Defendant’s emphasis on the purported
differences between the two methods of measuring
dissolution profiles seems to me to be misplaced as
even its own expert was willing to favorably compare
the two methods when it was to Defendant’s benefit to
do so. Therefore, whether the dissolution data reported in the specification was obtained using the basket method or the paddle method is not relevant to
whether the inventors had possession of the invention.
Defendant also argues that the lower bounds of the
one and two hour ranges lack written description support because they were pulled from Table 5, which reports data on specific embodiments which includes
different amounts of the polymer excipient hydroxypropylmethyl cellulose (“HPMC”). (D.I. 162 at 12).
Defendant contends that the data from the 15%
HPMC formulation was “randomly selected” and “improperly picked from amongst a plethora of other possible options.” (Id. at 12-13). I disagree. As Plaintiff
points out, claim 11 calls for a “sustained-release formulation.” (D.I. 164 at 34). Both Dr. Mayersohn and
Dr. Treacy testified that the data from the 5% and

46a
10% HPMC formulations indicated that both were “essentially immediate release” and the 15% formulation
was “the first one . . . where you see a sustained release profile.” (Tr. 615:6-19, 655:10-17). For this reason, it seems clear that these are appropriate data
points to support the claimed lower bounds for the one
and two hour ranges.
Dr. Mayersohn’s main criticism of using the data in
Table 5 was that there was no eight-hour value and,
in his opinion, the data provided indicated that the
dissolution profile would plateau and never reach the
claimed 99% at eight hours. (Tr. 615:20-616:3). I am
not convinced. There is no data provided at all in Table 5 for the dissolution at eight hours. I do not think
there is sufficient evidence to support Dr. Mayersohn’s plateau theory to a clear and convincing
standard for invalidating this patent claim. In contrast, as Plaintiff notes, there is an embodiment reported in Table 10 that has a dissolution profile falling
squarely within the claimed ranges. (D.I. 164 at 32).
Defendant also argues that the inventor did not possess the eight-hour limitation by attempting to characterize this limitation as a range, wherein “at least
99%” necessarily “extends up to and includes 100%.”
(D.I. 162 at 13). Defendant suggests that to show the
inventor possessed the invention, Plaintiff must establish written description support “for the upper end
of the claimed range above 99%.” (Id. at 15). I disagree. Dr. Treacy opined that “at least 99%” would be
understood by a person of ordinary skill to mean “essentially complete dissolution.” (Tr. 653:5-12). I find
this testimony credible. It seems clear to me that “at
least 99%” means “at least 99%” rather than “between
99% and 100%.” I think it is sufficient that the

47a
inventors showed possession by disclosing an embodiment that falls squarely within all of the claimed
ranges, including “at least 99%” at eight hours.
Defendant also criticizes the upper bounds of the
one and two hour ranges as lacking written description support because these bounds come from “a boilerplate paragraph containing multiple theoretical
ranges.” (D.I. 162 at 14). As an initial matter, there
is no definitive evidence that these ranges were “theoretical.” More importantly, I see nothing odd or invalidating about the inventors looking to different tables of dissolution data and other places in the specification to determine the ranges for the claimed dissolution profile. A single test on a single tablet could
provide only a single data point at each time; rather,
multiple tests are necessarily required to establish a
range.
Defendant suggests that all of the purported shortcomings it has identified in the disclosure of the
claimed ranges necessarily lead to the conclusion that
the patent fails to provide “blazemarks” that would direct a person of ordinary skill to select those specific
bounds. (D.I. 162 at 15). The cases Defendant cites to
support for this failure do not support its position. (Id.
at 9). Most of Defendant’s cases dealt with situations
where an inventor had disclosed a large genus of possible compounds. Fujikawa v. Wattanasin, 93 F.3d
1559, 1571 (Fed. Cir. 1996) (“simply describing a large
genus of compounds is not sufficient to satisfy the
written description requirement as to particular species or sub-genuses”); Boston Sci. Corp. v. Johnson &
Johnson, 647 F.3d 1353, 1367 (Fed. Cir. 2011) (finding
lack of written description where patent claimed “rapamycin or a macrocyclic triene analog thereof” but

48a
specification “fail[ed] to disclose even a single member
of either the genus of ‘analogs’ of rapamycin, or the
more specific genus of ‘macrocyclic triene analogs’ of
rapamycin”); In re Ruschig, 379 F.2d 990, 994
(C.C.P.A. 1967) (finding lack of written description
where disclosure of genus encompassed “half million
compounds within the scope of the broadest claim”).
The instant case is not one of an inventor disclosing a
large genus without any disclosure that certain of the
species within the genus are preferred. I hold that
Defendant has not proven by clear and convincing evidence that claim 11 of the ’195 patent is invalid for
lack of written description.
III.

OBVIOUSNESS

Defendant argues that claims 26 and 31 of the ’626
patent and claim 1 of the ’111 patent are invalid as
obvious over the prior art. 2 (D.I. 162 at 22, 27-28).
Specifically, Defendant argues that a person of ordinary skill in the art would have been motivated to
combine the teachings of the Jain and O’Malley references to administer the combination of naltrexone and
bupropion for treating overweight and obesity with a
reasonable expectation of success. (Id. at 28).
A.

Legal Standard

A patent claim is invalid as obvious “if the differences between the subject matter sought to be patented and the prior art are such that the subject
As I discuss below, because I find that claims 26 and 31 of the
’626 patent are valid and infringed, it is unnecessary for me to
decide whether claims 2 and 15 are infringed. I find it equally
unnecessary, therefore, to decide whether claims 2 and 15 are
valid.
2

49a
matter as a whole would have been obvious at the time
the invention was made to a person having ordinary
skill in the art to which said subject matter pertains.”
35 U.S.C. § 103; see also KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406-07 (2007). The determination of obviousness is a question of law with underlying factual
findings. See Kinetic Concepts, Inc. v. Smith &
Nephew, Inc., 688 F.3d 1342, 1359-60 (Fed. Cir. 2012).
“The underlying factual inquiries include (1) the scope
and content of the prior art; (2) the differences between the prior art and the claims at issue; (3) the
level of ordinary skill in the art; and (4) any relevant
secondary considerations . . . .” Western Union Co. v.
MoneyGram Payment Sys., Inc., 626 F.3d 1361, 1370
(Fed. Cir. 2010) (citing Graham v. John Deere Co., 383
U.S. 1, 17-18 (1966)).
A court is required to consider secondary considerations, or objective indicia of nonobviousness, before
reaching an obviousness determination, as a “check
against hindsight bias.” See In re Cyclobenzaprine
Hydrochloride Extended-Release Capsule Patent
Litig., 676 F.3d 1063, 1078-79 (Fed. Cir. 2012). Relevant secondary considerations include commercial
success, long felt but unsolved needs, failure of others,
praise, unexpected results, and copying, among others. Graham, 383 U.S. at 17-18; Ruiz v. A.B. Chance
Co., 234 F.3d 654, 662-63 (Fed. Cir. 2000); Tex. Instruments, Inc. v. U.S. Int’l Trade Comm’n, 988 F.2d 1165,
1178 (Fed. Cir. 1993). Secondary considerations of
nonobviousness are important because they “serve as
insurance against the insidious attraction of the siren
hindsight....” W.L. Gore & Assocs., Inc. v. Garlock,
Inc., 721 F.2d 1540, 1553 (Fed. Cir. 1983).

50a
A patentee is not required to present evidence of secondary considerations. See Prometheus Labs., Inc. v.
Roxane Labs., Inc., 805 F.3d 1092, 1101 (Fed. Cir.
2015). That said, if the patent challenger establishes
a prima facie case of obviousness, “the patentee would
be well advised to introduce evidence sufficient to rebut that of the challenger.” Id. (quoting Pfizer, Inc. v.
Apotex, Inc., 480 F.3d 1348, 1360 (Fed. Cir. 2007)).
There must be enough evidence, however, for a finding
that a given secondary consideration exists by a preponderance of the evidence. See Apple, Inc. v. Samsung Elec. Co., Ltd., 839 F.3d 1034, 1053 (Fed. Cir.
2016) (en banc). If there is, then the probative value
of each secondary consideration will be considered in
light of the evidence produced. That does not mean,
though, that the burden of persuasion on the ultimate
question of obviousness transfers to the proponent of
the secondary consideration. Pfizer, Inc., 480 F.3d at
1359. That burden stays always with the patent challenger. Id. at 1359-60.
A party asserting that a patent is invalid as obvious
must “show by clear and convincing evidence that a
skilled artisan would have been motivated to combine
the teachings of the prior art references to achieve the
claimed invention, and that the skilled artisan would
have had a reasonable expectation of success in doing
so.” Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348, 1361
(Fed. Cir. 2007). That “expectation of success need
only be reasonable, not absolute.” Id. at 1364.
“Whether an ordinarily skilled artisan would have
reasonably expected success .... is measured as of the
date of the invention[] . . . .” Amgen Inc. v. F. HoffmanLa Roche Ltd, 580 F.3d 1340, 1362 (Fed. Cir. 2009).

51a
B.

Findings of Fact

1. The level of ordinary skill in the art is a person
with a Ph.D. in the pharmaceutical sciences or
related field with at least three years of experience in pharmaceutical chemistry or drug development. Such a person would have access to researchers and clinicians as part of a project team.
(Tr. 651:3-17, 587:19-588:6, 589:15-590:6).
2. The ’111 and ’626 patents are entitled to a priority date of no later than April 21, 2004, the filing
date of U.S. Application No.10/828,795, which
matured into the ’111 and ’626 patents.
3. The Gadde Fax is not prior art.
4. Jain and O’Malley are prior art.
5. Jain and O’Malley do not teach a person of ordinary skill in the art the combination of bupropion
and naltrexone for the treatment of obesity or
overweight.
6. The combination of bupropion and naltrexone for
the treatment of obesity or overweight as disclosed in claims 26 and 31 of the ’626 patent and
claim 1 of the ’111 patent would not have been
obvious to a person of ordinary skill in the art.
C.
1.

Conclusions of Law

Priority Date of the ’111 and ’626 Patents

The ’111 and ’626 patents both claim priority to U.S.
Provisional Application No. 60/466,838 (“the ’838 provisional application”), filed on April 29, 2003. (’111
patent, cover; ’626 patent, cover). Defendant asserts
in post-trial briefing that Plaintiff failed to prove that
the ’838 provisional application “provided an

52a
adequate, enabling written description sufficient to
demonstrate that the asserted claims are entitled to
the ’838 provisional’s filing date.” (D.I. 162 at 16). Defendant appears to be suggesting that Plaintiff had an
affirmative duty to come forward with evidence supporting its claim to priority. I disagree. While the
burden of establishing entitlement to the priority date
of a provisional application rests with the party claiming priority, see, e.g., PowerOasis, Inc. v. T-Mobile
USA, Inc., 522 F.3d 1299, 1305 (Fed. Cir. 2008), Plaintiff need not have met that burden in this case.
As an initial matter, a defendant raising a defense
of invalidity based on anticipating prior art “has the
burden of going forward with evidence that there is
such anticipating prior art.” Tech. Licensing Corp. v.
Videotek, Inc., 545 F.3d 1316, 1327 (Fed. Cir. 2008).
Once the defendant has met its burden, the plaintiff
“has the burden of going forward with evidence either
that the prior art does not actually anticipate, or . . .
that it is not prior art because the asserted claim is
entitled to the benefit of a filing date prior to the alleged prior art.” Id.
Here, Defendant did not come forward with prior art
that would cause Plaintiff to present evidence that it
is entitled to claim the priority date of its provisional
application. First, Defendant’s arguments that the
’111 and ’626 patents are invalid are limited to obviousness and lack of written description. (See generally
D.I. 153). Defendant does not argue the ’111 and ’626
patents are invalid as anticipated by any prior art reference. Second, after the pretrial conference, Defendant represented to the Court that it would rely on one
specific combination of references to support its obviousness defense as to the ’111 and ’626 patents. (See

53a
D.I. 123). That combination consisted of Jain, a peer
reviewed paper from 2002, and O’Malley, a patent
that issued on April 1, 2003. Defendant identified no
other prior art references to support its obviousness
defense, and in particular, none between April 29,
2003 and April 21, 2004. Thus, there was no need for
Plaintiff to present evidence that it was entitled to an
earlier priority date in order to prevent a particular
reference from being treated as prior art. Further, although Defendant referred to Gadde in its letter to the
Court (id. at 2, 5), Defendant did not indicate that it
would rely upon the Gadde Fax as prior art, 3 and in
any event, for the reasons stated below, I find that the
Gadde Fax does not constitute prior art. Whether the
’111 and ’626 patents are entitled to the priority date
of a provisional application is therefore immaterial
under the circumstances of this case.
2.

Scope and Content of the Prior Art
i.

The Gadde Fax

Defendant argues that Dr. Gadde’s work in 2000
treating patients with the combination of naltrexone
and bupropion for weight loss, as documented in the
Gadde Fax, constitutes prior art. (D.I. 162 at 31). I
That Defendant did not seek to rely on the Gadde Fax as prior
art is further supported by Defendant’s representations at the
pretrial conference on May 15, 2017. At the conference, in connection with Defendant’s Motion in Limine #3, I asked Defendant whether it would “be relying on some art that is dated between April 29th of 2003 and April 21st of 2004.” (D.I. 138 at
75:11-15). Defendant responded that it would drop that motion
in light of my request that it identify the specific prior art on
which it intended to rely. (Id. at 75:17-22). Accordingly, I dismissed Defendant’s Motion in Limine #3 as moot. (Id. at 75:2324).
3

54a
disagree. The contents of the Gadde Fax, the purported treatment of six patients in 1997 and 2000,
were not corroborated at trial. (Tr. 950:17-951:3). Defendant suggests that no corroboration was necessary
“because Dr. Gadde is a nonparty inventor with no interest in this litigation.” (D.I. 162 at 31 n.7). It is true
that the Federal Circuit has held that “corroboration
is required only when the testifying inventor is asserting a claim of derivation or priority of his or her invention and . . . stands to directly and substantially gain
by his or her invention being found to have priority
over the patent claims at issue.” Thomson, S.A. v.
Quixote Corp., 166 F.3d 1172, 1176 (Fed. Cir. 1999).
The problem for Defendant in this case, however, is
that Dr. Gadde did not testify to any independent recollection of any of the facts of the treatments he administered in 1997 or 2000. Rather, Dr. Gadde testified directly from the 2003 Fax. Dr. Gadde’s 1997 and
2000 treatments, therefore, are not themselves prior
art. The Gadde Fax is not evidence of anything more
than the fact that Dr. Gadde shared with Orexigen the
contents of the Fax in 2003.
ii.

Jain

Jain is a peer reviewed paper published in 2002.
(DTX-011). There is no dispute that Jain is prior art.
Jain discloses a placebo-controlled study of sustained
release bupropion for reducing weight and depressive
symptoms in obese patients. (DTX-11, p. 1049). Jain
reports a placebo adjusted weight loss of 2.8%. (Id.;
Tr. 852:23-24). Jain does not discuss naltrexone, nor
does it suggest combining bupropion with naltrexone
or any other drug. (Tr. 853:17-23). Jain further discloses that the mechanism of action of bupropion for

55a
weight loss was unknown.
854:9-17).
iii.

(DTX-11, p. 1055; Tr.

O ’Malley

O’Malley is a U.S. Patent that issued on April 1,
2003. (DTX-18, cover). O’Malley issued from an application filed on September 16, 1999. (Id.). There is
no dispute that O’Malley is prior art. O’Malley discloses the use of an opioid antagonist, such as naltrexone, during smoking cessation to minimize weight
gain. (Id. at 1:14-21). O’Malley also discloses that the
opioid antagonist may be administered “in combination with at least one withdrawal attenuating agent...
such as clonidine, acamprosate, antihypertensives,
antidepressants, antianxiety agents, agents which alter serotonergic function or other agents.” (Id. at
4:25:33). One of the antidepressants disclosed in
O’Malley is bupropion. (Id, claims 1, 4, and 19).
3.

Comparing Prior Art and Claimed Subject
Matter

Defendant argues that it would have been obvious
to a person of ordinary skill in the art to combine bupropion and naltrexone for treating overweight and
obesity because both bupropion and naltrexone were
known to cause weight loss. (D.I. 162 at 17). Defendant further argues that the combination of bupropion
and naltrexone for the purposes of weight loss had
also been disclosed prior to the priority date of the ’111
and ’626 patents. (Id. at 18).
Plaintiff responds by arguing that Defendant’s obviousness analysis suffers from impermissible hindsight bias. (D.I. 164 at 15). Plaintiff argues that
“there were dozens of different biological targets for

56a
weight loss with a wide range of pharmacological
agents that could be considered for each of those targets.” (Id.). Plaintiff contends that Defendant “starts
with bupropion because the ultimate invention had
bupropion,” and argues that assuming a person of ordinary skill “would necessarily focus on improving bupropion” constitutes improper hindsight bias. (Id.).
Defendant’s expert, Dr. Ahima, opined that Jain disclosed that sustained release bupropion was effective
and well-tolerated. (Tr. 430:22-431:2). Plaintiff’s expert, Dr. Seeley, disagreed, pointing to the “relatively
modest” placebo-adjusted weight loss of 2.8%. (Tr.
852:22-24). This modest weight loss was insufficient
to meet FDA requirements of five percent placebo adjusted weight loss. (Tr. 851:5-11). Dr. Seeley also testified that bupropion was “known to have seizure
risks.” (Tr. 853:3-16). Defendant cites to additional
prior art disclosing that bupropion was effective for
weight loss, including papers by Anderson and Gadde.
(D.I. 162 at 23; Tr. 425:16-426:21,428:3-17; DTX-9;
DTX-10). Dr. Seeley responded by pointing to a statement in the Gadde reference that the “seizure risks
complicates [bupropion’s] use in obesity.” (Tr. 877:78; DTX-9, p.550). The Gadde paper concludes that,
“Alternative norepinephrine and dopamine uptake inhibitor drugs should be investigated as adjunctive
therapies in weight management.” (Tr. 877:8-11;
DTX-9, p.550). Dr. Seeley opined that a person of ordinary skill would understand the Gadde reference as
“teach[ing] away from using bupropion as a weight
loss therapy.” (Tr. 877:14-17).
Dr. Seeley also testified to the many different biological targets for treating obesity. (Tr. 849:17850:23; PTX-112). Dr. Seeley opined that each of

57a
these biological targets would involve different pharmacological agents. (Tr. 850:17-23). According to Dr.
Seeley, the limited effectiveness of bupropion, combined with the fact that the mechanism of action of
bupropion was unknown, would discourage a person
of ordinary skill from considering bupropion as a
starting point in developing a new weight loss drug.
(Tr. 854:6-22).
I agree with Plaintiff that Defendant’s suggestion
that bupropion would be an obvious choice for further
study in the treatment of overweight and obesity suffers from impermissible hindsight bias. It seems clear
that the weight loss effects of bupropion were known
to be relatively modest at best. There is also no dispute that the prior art references reported potential
risks associated with bupropion, including the risk of
seizure. Based on the lack of knowledge of the mechanism of action, combined with the modest effectiveness, I do not think a person of ordinary skill would
have found bupropion to be an obvious starting point
for further study.
Defendant next argues that it would have been obvious to combine bupropion with naltrexone to enhance bupropion’s weight loss effects. (D.I. 162 at 18).
According to Defendant, naltrexone was known to
cause weight loss and the combination of bupropion
and naltrexone had already been used for weight loss.
(Id. at 17-18). Plaintiff responds that the literature
does not disclose that naltrexone alone was effective
for weight loss. (D.I. 164 at 18). Plaintiff further argues that the prior art references Defendant cites in
support of the combination do not actually disclose the
use of the combination for weight loss. (Id. at 19).

58a
Defendant relies on the Atkinson and Bernstein references as support for its argument that naltrexone
was known to cause weight loss. (D.I. 162 at 17; Tr.
440:4-21, 438:12-20). Dr. Ahima testified that Atkinson disclosed “a small but significant weight loss in
women, not the men” in a study of sixty obese patients
given naltrexone for eight weeks. (Tr. 440:15-19;
DTX-97, p.419). Dr. Ahima further testified that
Bernstein disclosed “significant reductions in carbohydrate cravings” in patients treated with naltrexone.
(Tr. 438:12-20; DTX-13 at ¶15).
Plaintiff’s expert, Dr. Seeley, pointed out that Bernstein does not disclose weight loss, only curbing carbohydrate cravings. (Tr. 878:13-21). Dr. Seeley further testified that Atkinson disclosed a body weight
increase in men taking naltrexone. (Tr. 881:1-18). According to Dr. Seeley, a person of ordinary skill reading Defendant’s prior art references would conclude
that “naltrexone is not a very effective weight loss
agent by itself.” (Tr. 882:3-9). Dr. Seeley further
opined that the references “teach away from the use
of naltrexone.” (Tr. 882:10-12).
I agree with Plaintiff that the prior art cited by Defendant does not teach a person of ordinary skill that
naltrexone was effective for weight loss. The Bernstein reference in particular was not directed to
weight loss and did not disclose weight loss effects of
naltrexone. I do not think a disclosure of effectiveness
for curbing carbohydrate cravings, without more,
would inform a person of ordinary skill that naltrexone was effective for weight loss in overweight or
obese individuals. Furthermore, Atkinson’s disclosure of a small weight loss in women is counterbalanced by its disclosure of an increase in body weight

59a
in men. I do not think either of these references, individually or in combination, teaches a person of ordinary skill that naltrexone is effective for weight loss.
Finally, Defendant argues that the prior art disclosed the use of the combination of bupropion and
naltrexone for weight loss. (D.I. 162 at 18). Defendant cites to the Dante and O’Malley patents as support
for this contention. (Id.; DTX-16; DTX-18). Dr. Ahima
testified that Dante discloses the use of the combination “decreases cravings for sugar and carbohydrates.”
(Tr. 445:10-18). Dr. Ahima further testified that the
combination of bupropion and naltrexone was disclosed in O’Malley as effective for reducing weight
gain during smoking cessation treatment.
(Tr.
448:22-449:17).
Plaintiff responds by pointing out that neither of
these references disclose the use of the combination of
bupropion and naltrexone for weight loss. (D.I. 164 at
19). Dr. Seeley testified that Dante disclosed compositions and methods of treatment for depression, not
weight loss. (Tr. 869:21-870:3; DTX-16). According to
Dr. Seeley, Dante does not disclose weight loss using
a combination of bupropion and naltrexone, Dante
does not disclose naltrexone enhancing bupropion’s
weight loss effectiveness, and the only discussion related to weight management in Dante is of weight
gain associated with tricyclic antidepressants, a different category of antidepressants than bupropion.
(Tr. 870:7-23).
Dr. Seeley further testified that O’Malley is directed
to smoking cessation treatments, not weight loss. (Tr.
856:14-857:5). Dr. Seeley explained that O’Malley
does not contain a single disclosure of weight loss. (Tr.

60a
857:3-5). Rather, O’Malley discloses a single example
of minimizing weight gain during smoking cessation
therapy and that the single example did not use the
combination of naltrexone and bupropion. (Tr. 857:622). Dr. Seeley explained that a person of ordinary
skill would read O’Malley to disclose that bupropion
was used to treat the depressive symptoms smokers
have when they stop smoking. (Tr. 858:14-859:4). Dr.
Seeley further explained that naltrexone was used “as
an adjunct for smoking cessation therapy . . . to block
[the] rewarding ability [of nicotine], making it less
likely that you’re going to pick up a cigarette again.”
(Tr. 859:17-23). According to Dr. Seeley, there is no
disclosure of naltrexone enhancing bupropion’s
weight loss effects. (Tr. 860:7-861:17). Rather, the
only enhancement disclosed in O’Malley is the enhancement of smoking cessation treatments. (Tr.
863:6-20).
I find Dr. Seeley’s testimony and explanations credible. I do not think that Dante and O’Malley teach a
person of ordinary skill that the combination of naltrexone and bupropion is effective for weight loss.
Neither of these references teach a person of ordinary
skill anything about weight loss and neither of them
indicate that naltrexone enhances bupropion’s effectiveness for weight loss. Defendant’s argument, it
seems to me, is a classic case of hindsight bias. Defendant begins with the combination Plaintiff ultimately patented and then seeks to justify that combination by combining prior art references that simply
would not guide a person of ordinary skill to choose
this combination.
Defendant argues that a person of ordinary skill
would have been motivated to combine the teachings

61a
of Jain and O’Malley to arrive at the combination of
bupropion and naltrexone for weight loss. (D.I. 162 at
28). Defendant’s rationale is based on a person of ordinary skill reaching the conclusion that naltrexone
was effective for weight loss and that the combination
had been previously used in connection with weight
loss. (Id.). I have already determined that neither of
these conclusions are supported by Defendant’s prior
art references. It seems clear that the prior art disclosed that naltrexone was not effective for weight
loss, at least because it caused weight gain in the men
involved in the study. Furthermore, Defendant’s prior
art does not disclose the use of the combination for
weight loss, nor does it disclose any enhancement of
bupropion’s effectiveness for weight loss. I fail to see
how the combination of Jain and O’Malley, in the absence of impermissible hindsight bias, would motivate
a person of ordinary skill to pursue the combination of
bupropion and naltrexone for weight loss.
As I have determined that the Gadde Fax is not
prior art and cannot serve as evidence of prior use by
Dr. Gadde, I need not consider whether the disclosure
of his alleged treatment of two patients in 2000 with
the combination of bupropion and naltrexone with
“questionable benefit” and “no additional benefit”
would have served as motivation to combine or would
have provided a reasonable expectation of success.
4.

Secondary Considerations

“[S]econdary considerations, when present, must be
considered in determining obviousness.” Ruiz, 234
F.3d at 667; see also Cyclobenzaprine, 676 F.3d at
1076 (“[E]vidence on these secondary considerations
is to be taken into account always, not just when the

62a
decisionmaker remains in doubt after reviewing the
art.” (quoting Cable Elec. Prods, v. Genmark, Inc., 770
F.2d 1015, 1026 (Fed. Cir. 1985))).
Plaintiff presented evidence of unexpected results
and failure of others. (D.I. 164 at 27). Plaintiff argues
that the synergistic effect of the combination treatment was unexpected based on what was known from
the prior art about using the two drugs individually
for weight loss. (Id.). Defendant criticizes the single
study Plaintiff points to as not being probative of nonobviousness because “it is not commensurate with the
scope of the asserted claims.” (D.I. 162 at 33). According to Defendant, the claims do not require synergy,
only that naltrexone enhance the effectiveness of bupropion. (Id.). Defendant further argues that the
study only showed synergy for 400 mg of bupropion
with 36 mg of naltrexone and that the other combinations reported in the study were “merely additive.”
(Id.). I am not persuaded. As I concluded above, a
person of ordinary skill would not have expected the
combination of bupropion and naltrexone to have any
enhanced effectiveness compared to bupropion alone.
Therefore, it seems to me that even a limited study
showing synergy for some combinations of the two
drugs would necessarily constitute unexpected results.
Plaintiff argues that there had been “numerous failures in the field of safe and effective obesity medications.” (D.I. 164 at 27). Plaintiff presented evidence
that “by the time of invention . . . there were only two
FDA drugs approved for the long-term treatment of
obesity” and “at least seven other drugs that were being developed for the treatment of obesity had failed.”
(Id. at 28). Defendant counters that, rather than

63a
showing failure of others, the record shows evidence
of success of others. (D.I. 162 at 34). Defendant again
cites to the work of O’Malley, Dante, and Dr. Gadde
as support for its contention that others had been successful in using the combination of naltrexone and bupropion for weight loss. (Id.). As I stated above, I disagree that there was any disclosure in O’Malley or
Dante showing the use of the combination for weight
loss and I am dubious about the claim that Dr.
Gadde’s results in treating two patients showed success. Defendant also argues that “there were and are
a number of FDA-approved weight loss drugs” that
are more effective and that carry a lower risk of side
effects than the bupropion-naltrexone combination.
(Id.). Defendant’s claim that there were “a number of’
other weight loss drugs is belied by the fact that it can
only name two other approved weight loss drugs.
(Id.). I do not think these two other drugs rebut Plaintiff’s showing that many others had tried and failed to
obtain FDA approval for weight loss drugs. 4
For the reasons given above, I find that Defendant
has not met its burden of proving by clear and convincing evidence that claims 26 and 31 of the ’626 patent and claim 1 of the ’111 patent are obvious.

In post-trial briefing, Defendant for the first time argued that
Plaintiff’s Contrave product has not been commercially successful and that Dr. Gadde’s 2000 treatment of two patients constitutes simultaneous invention. (D.I. 162 at 35-36). As Defendant
failed to make these arguments at trial, I decline to consider either of them. Even if I were to consider them, I would be dubious
about the merits of both arguments.
4

64a
IV.

INFRINGEMENT

Plaintiff asserts that Defendant directly infringes
claim 1 of the ’111 patent and indirectly infringes
claim 11 of the ’195 patent and claims 2, 15, 26, and
31 of the ’626 patent. During discovery, Defendant
never alleged that its proposed ANDA product did not
meet the following claim limitations: 1) “bupropion . .
. effective to induce weight loss” in the ’626 and ’111
patents; 2) “naltrexone . . . effective to enhance the
weight loss effect of the bupropion” in the ’626 and
’111 patents; and 3) “sustained release” in the ’111 and
’195 patents. (D.I. 129 at 4). In the pre-trial order,
Defendant attempted to raise new non-infringement
defenses, including by alleging failure of proof of these
three limitations. (Id. at 3). In an order dated May
19, 2017, I held that Defendant had waived the right
to contest these three limitations. (Id. at 5).
A.

Legal Standard

A patent is infringed when a person “without authority makes, uses, offers to sell, or sells any patented invention, within the United States . . . during
the term of the patent . . . .” 35 U.S.C. § 271(a). A twostep analysis is employed in making an infringement
determination. See Markman v. Westview Instruments, Inc., 52 F.3d 967, 976 (Fed. Cir. 1995) (en
banc), aff’d, 517 U.S. 370 (1996). First, the court must
construe the asserted claims to ascertain their meaning and scope. See id. The trier of fact must then compare the properly construed claims with the accused
infringing product. See id. This second step is a question of fact. Bai v. L & L Wings, Inc., 160 F.3d 1350,
1353 (Fed. Cir. 1998). “Literal infringement of a claim
exists when every limitation recited in the claim is

65a
found in the accused device.” Kahn v. Gen. Motors
Corp., 135 F.3d 1472, 1477 (Fed. Cir. 1998). “If any
claim limitation is absent from the accused device,
there is no literal infringement as a matter of law.”
Bayer AG v. Elan Pharm. Research Corp., 212 F.3d
1241, 1247 (Fed. Cir. 2000). The patent owner has the
burden of proving infringement by a preponderance of
the evidence. See SmithKline Diagnostics, Inc. v. Helena Labs. Corp., 859 F.2d 878, 889 (Fed. Cir. 1988).
35 U.S.C. § 271(b) provides that “[w]hoever actively
induces infringement of a patent shall be liable as an
infringer.” 35 U.S.C. § 271(b). “In order to prevail on
an inducement claim, the patentee must establish
first that there has been direct infringement, and second that the alleged infringer knowingly induced infringement and possessed specific intent to encourage
another’s infringement.” ACCO Brands, Inc. v. ABA
Locks Mfrs. Co., 501 F.3d 1307, 1312 (Fed. Cir. 2007)
(internal quotation marks omitted). In other words,
“inducement requires evidence of culpable conduct, directed to encouraging another’s infringement, not
merely that the inducer had knowledge of the direct
infringer’s activities.” DSU Med. Corp. v. JMS Co.,
471 F.3d 1293, 1306 (Fed. Cir. 2006) (en banc). “[S]pecific intent may be inferred from circumstantial evidence where a defendant has both knowledge of the
patent and specific intent to cause the acts constituting infringement.” Ricoh Co. v. Quanta Computer
Inc., 550 F.3d 1325, 1342 (Fed. Cir. 2008). “[L]iability
for induced infringement can only attach if the defendant knew of the patent and knew as well that ‘the
induced acts constitute patent infringement.’” Commil USA, LLC v. Cisco Sys., Inc., 135 S. Ct. 1920, 1926
(2015) (quoting Global-Tech Appliances, Inc. v. SEB

66a
S.A., 131 S. Ct. 2060, 2068 (2011)). The knowledge
requirement may be satisfied by showing actual
knowledge or willful blindness. See Global-Tech, 131
S. Ct. at 2068 (2011).
In Hatch-Waxman cases alleging that a proposed
drug label will induce infringement by physicians,
“The pertinent question is whether the proposed label
instructs users to perform the patented method.”
AstraZeneca LP v. Apotex, Inc., 633 F.3d 1042, 1060
(Fed. Cir. 2010). “The label must encourage, recommend, or promote infringement.” Takeda Pharm.
USA, Inc. v. West-Ward Pharm. Corp., 785 F.3d 625,
631 (Fed. Cir. 2015). “The mere existence of direct infringement by physicians, while necessary to find liability for induced infringement, is not sufficient for inducement.” Id. Rather, “specific intent and action to
induce infringement must be proven.” Id. Even
where a proposed label does not explicitly track the
language of a claimed method, a package insert containing directives that will “inevitably lead some consumers to practice the claimed method” provides sufficient evidence for a finding of specific intent. See
AstraZeneca, 633 F.3d at 1060; see also Abraxis Bioscience, Inc. v. Navinta, LLC, 630 F. Supp. 2d 553, 570
(D.N.J. 2009) (“Statements in a package insert that
encourage infringing use of a drug product are alone
sufficient to establish intent to encourage direct infringement.”), rev’d and vacated on other grounds, 625
F.3d 1359 (Fed. Cir. 2010).
B.

Divided Infringement

Defendant contends that all of the asserted claims
of the ’626 patent require two steps, diagnosing and
administering, that are each performed by a different

67a
actor, the doctor and the patient. (D.I. 172 at 8-10).
According to Defendant, since the doctor diagnoses
and the patient administers, there can be no infringement of these claims unless the patient is under the
“control” of the doctor. (Id. at 11-14).
As an initial matter, I find that claims 26 and 31,
which depend from claim 25, of the ’626 patent involve
the single step of administering the drug to a patient
who has already been diagnosed. Defendant attempts
to create an additional step in this method claim
based on the fact that claim 25 requires that the drug
is to be administered “to an individual who has been
diagnosed as suffering from overweight or obesity.”
According to Defendant, “an obesity/overweight diagnosis is an explicit requirement of all of the ’626
claims that will always be performed before the administering step.” (D.I. 172 at 10) (emphasis omitted).
I agree that a diagnosis is required, but I disagree that
this comprises a step in the method claim. A plain
reading of this claim limitation indicates that the individual will already be diagnosed prior to the method
being performed. The method itself requires only the
single step of administering the drug.
I also disagree with Defendant’s assertion that
Plaintiff “unequivocally admitted that the asserted
claims of the ’626 patent require a diagnosing step.”
(D.I. 172 at 10). Plaintiff made no such admission.
Rather, Plaintiff stated only that some of the claims
require “diagnosing” while other claims require “an
individual who has been diagnosed.” (D.I. 131, Ex.
17B at 1). This restatement of the precise language of
the claims is not an admission of anything.

68a
There is no dispute that claims 2 and 15, which both
depend from claim 1, involve both a diagnosing step
and an administering step. There is also no dispute
that the diagnosing step is performed by the doctor,
but the administering step, which I have construed as
“delivering into the body” is performed by the patient,
who takes the pills each day outside of the presence of
the doctor. The parties dispute whether the patient’s
actions in self-administering the drug are attributable
to the physician who performed the diagnosing step. I
do not think it is necessary for me to decide this issue.
Having found that all of the asserted claims of the ’626
patent are not invalid and that claims 26 and 31 are
infringed, I think the question of divided infringement
presented by claims 2 and 15 is moot. I cannot conceive of any circumstances in which an additional
finding of either infringement or non-infringement of
claims 2 and 15 would have any impact on the outcome of this case. Therefore, I decline to decide
whether the administering step in independent claim
1 is attributable to the physician.
C.

Infringement of the ’111 Patent

Plaintiff asserts that Defendant directly infringes
claim 1 of the ’111 patent. Prior to trial, the only noninfringement argument raised by Defendant as to the
’111 patent was that it could not be infringed because
it was invalid. (D.I. 129 at 3). By order dated May 19,
2017, I held that Defendant would not be allowed to
raise new non-infringement arguments for the first
time at trial. (Id.).
1.

Findings of Fact

1. Defendant has not disputed infringement of claim
1 of the ’111 patent. (Tr. 98:24-99:3, 499:8-17).

69a
2. Defendant’s ANDA Product is a composition for
affecting weight loss. (PTX-022.0001; Tr. at
97:14-23).
3. Defendant’s ANDA Product contains sustainedrelease naltrexone and bupropion.
(PTX022.0002; Tr. at 92:8-14, 95:14-96:8).
4. Defendant’s ANDA Product contains bupropion in
an amount effective to induce weight loss. (PTX022.0005-.0006, .0028, .0039-.0040; Tr. 77:6-23,
90:7-21, 93:11-19, 97:14-23, 152:23-153:3).
5. Defendant’s ANDA Product contains naltrexone
in an amount effective to enhance weight loss activity of the bupropion. (PTX-022.0005, .0028,
.0039-.0040; Tr. 78:2-14, 78:19-79:18, 90:7-91:12,
92:15-93:8, 93:11-19; 94:10-23, 97:24-98:13,
114:11-24, 152:23-153:3).
6. Defendant’s ANDA Product is a single oral dosage
form fixed combination.
(PTX-022.0002; Tr.
91:13-92:14, 93:8-10, 95:4-13, 98:14-23).
7. Defendant’s ANDA Product meets all of the elements of claim 1 of the ’111 patent.
2.

Conclusions of Law

As discussed above, I hold that Defendant failed to
prove by clear and convincing evidence that claim 1 of
the ’111 patent is invalid as obvious. Defendant has
made no other noninfringement arguments. Since
Plaintiff has shown by a preponderance of evidence
that Defendant’s ANDA product meets all limitation
of this claim, I hold that Defendant infringes claim 1
of the ’111 patent.

70a
D.

Infringement of the ’195 Patent

Plaintiff asserts that Defendant indirectly infringes
claim 11 of the ’195 patent. Prior to trial, the noninfringement arguments raised by Defendant as to
the ’195 patent were limited to (1) invalidity, (2) that
Defendant did not administer any compounds, (3) no
single entity performed all of the steps of the method,
and (4) Defendant’s product does not meet the claimed
dissolution profile. (D.I. 129 at 4). By order dated
May 19, 2017, I held that Defendant would not be allowed to raise new non-infringement arguments for
the first time at trial and that Defendant had waived
the right to contest the “sustained release” limitation
of claim 11. (Id. at 3, 5).
1.

Findings of Fact

1. As construed by the Court, the term “administering” as used in claim 11 of the ’195 patent means
“delivering into the body.” (D.I. 62).
2. As construed by the Court, the preamble “having
reduced adverse effects” in claim 11 of the ’195 patent is not limiting. (D.I. 62).
3. Actavis had knowledge of the ’195 patent prior to
filing Actavis’s ANDA. (D.I. 131, Ex. 1 at ¶18).
4. Claim 11 recites only one step—“administering”
naltrexone or a pharmaceutically acceptable salt
thereof and bupropion or a pharmaceutically acceptable salt thereof. (Tr. 159:15-160:1).
5. Claim 11 does not require a separate diagnosing
step. (Tr. 160:2-160:14).
6. Because the patient will administer bupropion or
a pharmaceutically acceptable salt thereof and

71a
naltrexone or a pharmaceutically acceptable salt
thereof to himself or herself, a single actor performs all of the steps of the method recited in
claim 11 of the ’195 patent. (See Tr. 158:10-12,
159:15-160:14).
7. The proposed labeling for Defendant’s ANDA
Product states that it is “indicated as an adjunct
to a reduced-calorie diet and increased physical
activity for chronic weight management in adults
with an initial body mass index (BMI) of: 30 kg/m2
or greater (obese) or 27 kg/m2 or greater (overweight) in the presence of at least one weight-related comorbid condition (e.g., hypertension, type
2 diabetes mellitus, or dyslipidemia).” (PTX022.0001; D.I. 131, Ex. 1 at ¶59; Tr. 223:24224:24).
8. The proposed labeling for Defendant’s ANDA
Product states that “Naltrexone hydrochloride
and bupropion hydrochloride extended-release
tablets should be taken by mouth in the morning
and in the evening.” (PTX-022.0006; Tr. 223:24224:24).
9. The “Dosage and Administration” section of the
proposed labeling for Defendant’s ANDA Product
sets forth the following titration schedule:
2 DOSAGE AND ADMINISTRATION
2.1 Recommended Dosing
Naltrexone hydrochloride and bupropion hydrochloride extended-release tablets dosing should
be escalated according to the following schedule:

72a

Week 1
Week 2
Week 3
Week 4 – Onward

Morning
Dose
1 tablet
1 tablet
2 tablets
2 tablets

Evening
Dose
None
1 tablet
1 tablet
2 tablets

A total daily dosage of two naltrexone hydrochloride and bupropion hydrochloride extended-release tablets 8 mg/90 mg tablets twice daily (32
mg/360 mg) is reached at the start of Week 4
(PTX-022.0006; D.I. 131, Ex. 1 at ¶ 62; Tr.
223:24-224:24).
10. At the end of the titration schedule, Defendant’s
proposed label instructs patients to take a total
of 32 mg naltrexone hydrochloride and 360 mg
bupropion hydrochloride per day. (Id.).
11. At the end of the titration schedule, Defendant’s
proposed label instructs patients to take two tablets of Defendant’s ANDA Product per day in a
“Morning Dose” and two tablets of Defendant’s
ANDA Product per day in an “Evening Dose,” i.e.
16 mg naltrexone hydrochloride and 180 mg bupropion hydrochloride twice daily. (Id.).
12. Defendant’s ANDA Product is a tablet containing sustained-release bupropion hydrochloride
and sustained-release naltrexone hydrochloride.
(Tr. 223:24-224:24, 226:13-18; D.I. 131, Ex. 1 at
¶ 60).
13. Defendant conducted dissolution testing on Lot #
2284R0007 of its ANDA Product, an exhibit
batch used for its ANDA submission. (PTX-

73a
019.0010; PTX-016.0179; D.I. 131, Ex. 1 at ¶ 61;
Tr. 230:24-231:20).
14. Lot # 2284R0007 is representative of Defendant’s
ANDA Product. (See Tr. 255:12-19).
15. Defendant conducted dissolution testing using
USP Apparatus 2 at 100 rpm in water at 37°C on
six tablets from Lot # 2284R0007, the results of
which are set forth below:
Table 4. Dissolution Profile (Naltrexone
Hydrochloride) of Lot # 2284R0007 at 100
rpm, paddle [Water, USP Apparatus II, 900
mL]
Units 30 min 60 min 120 min 180 min 240 min 360 min 480 min 600 min
1
30
43
64
90
101
101
101
102
2
27
40
58
72
96
103
104
104
3
30
44
65
82
103
106
107
107
4
28
40
58
71
83
102
103
103
5
30
43
62
77
90
103
105
105
6
30
42
61
78
91
102
103
103
Mean
29
42
61
78
94
103
104
104
Min
27
40
58
71
83
101
101
102
Max
30
44
65
90
103
106
107
107
%RSD
4.2
4.0
5.1
8.7
7.8
1.7
1.8
1.7

(PTX-019.0011; PTX-015.0005;
233:13, 262:5-23, 264:7-15).

Tr.

232:5-

16. Claim 11 of the ’195 patent does not require analysis or interpretation of the dissolution profile
testing results as set forth on page 1943 of the
United States Pharmacopeia. (Tr. 248:10-16).
17. Defendant’s testing showed that its ANDA Product includes tablets that meet the dissolution
profile for naltrexone recited in claim 11 of the
’195 patent, i.e. between 39% and 70% of naltrexone released in one hour, between 62% and 90%
of naltrexone released in two hours and at least

74a
99% in 8 hours.
229:13).

(PTX-019.0011; Tr. 228:20-

18. Through its label (as set forth in D.I. 165 at
¶¶100-11), Defendant actively encourages patients to practice each element of the claimed
method of claim 11 by administering Defendant’s
ANDA Product to themselves.
19. Plaintiff established by a preponderance of the
evidence that each of the limitations of Claim 11
of the ’195 patent are demonstrated by Defendant’s ANDA, and that Defendant had the requisite intent to induce infringement, including
knowledge of the ’195 patent before submitting
its ANDA. (PTX-015.0005; PTX-016.0179; PTX019.0010-.0011; PTX-022.0001, .0006; D.I. 131,
Ex. 1 at ¶¶ 18, 59-62; Tr. 158:10-12, 159:15160:14, 221:22-234:11).
2.

Conclusions of Law

Defendant’s non-infringement arguments as to
claim 11 of the ’195 patent all center on whether its
proposed ANDA product meets the claimed dissolution profile. For example, Defendant argues that
Plaintiff “has adduced no evidence that Actavis knows
what the dissolution profile of Actavis’s ANDA Product will actually be in any given administration.” (D.I.
165 at 70, ¶ 180). Specifically, Defendant argues that
the dissolution profiles of some of the tablets it tested
fall outside the claimed range of between 62% and
90% at two hours. (Id., ¶ 181). Defendant also argues
that a specific analysis or interpretation protocol is
implicitly required by the claim as being part of the
USP Apparatus 2 method. (Id. at 66-67, ¶¶ 159-67).

75a
As an initial matter, I do not think the claim requires performing the separate analysis or interpretation protocol set forth in the United States Pharmacopeia (“USP”). Defendant argues that because the
claim requires the dissolution profile to have certain
characteristics when measured using USP Apparatus
2, the protocol for interpretation of the data obtained
using the method must also be used. (D.I. 165 at 6669, ¶¶ 158-77; Tr. 243:11-248:20). I am not persuaded. The claim specifies that the dissolution profile must be measured using USP Apparatus 2. There
is no mention of interpretation or analysis in the claim
language. Plaintiff’s expert, Dr. Treacy, credibly testified that a person of ordinary skill would not have
read the claim to require the use of the additional
analysis or interpretation protocol “specified in general Chapter 711 of the USP.” (Tr. 248:10-16). Defendant did not present expert testimony in rebuttal
of Dr. Treacy’s conclusion. Defendant cannot create a
dispute of fact on an issue requiring technical analysis
based solely on attorney argument. Invitrogen Corp.
v. Clontech Labs., Inc., 429 F.3d 1052, 1068 (Fed. Cir.
2005).
While it is certainly true that some of the tablets fall
slightly outside of the claimed range for the two hour
dissolution data, I disagree that this has any relevance to the question of whether Defendant’s product
infringes. Defendant does not appear to dispute that
some of the tablets it tested fall squarely within the
claimed dissolution profile; rather, Defendant suggests that in order to prevail on its infringement
claim, Plaintiff must prove that Defendant knows of
some particular administration of the ANDA product
that will meet the claimed dissolution profile. (Id. at

76a
69-70, ¶¶179-182). This is not the law. “[A]an accused
product that sometimes, but not always, embodies a
claimed method nonetheless infringes.”
Bell
Commc’ns Research, Inc. v. Vitalink Commc’ns Corp.,
55 F.3d 615, 622-23 (Fed. Cir. 1995). Plaintiff has adduced sufficient evidence to prove by a preponderance
of the evidence that at least some of Defendant’s tablets will meet the claimed dissolution profile. This is
all that is required for a finding of infringement.
Defendant also argues that Plaintiff cannot prove
that it “specifically intends to encourage infringement” because its “proposed label does not even mention the dissolution profile” of its product. (D.I. 165 at
70, ¶¶ 183-85). I have already concluded that Defendant’s proposed ANDA product meets the dissolution
profile; I do not think it is necessary for infringement
of this method claim to find that Defendant’s proposed
label includes the dissolution profile. The claimed
method requires administering a product with specific
properties. Defendant’s product meets all limitations
in the claim and the label instructs on administering
the product in the amount and with the frequency recited in the claim. Whether the patient who performs
the method by administering the tablets knows that
the tablets meet the dissolution profile is irrelevant
for the purposes of infringement. Defendant knows
that the tablets meet all of the claim limitations and,
through its proposed label, encourages patients to administer the tablets in a manner that infringes the
claimed method.
For the foregoing reasons, I hold that Plaintiff has
proven by a preponderance of the evidence that Defendant induces infringement of claim 11 of the ’195
patent.

77a
E.

Infringement of the ’626 Patent

Plaintiff asserts that Defendant indirectly infringes
claims 2, 15, 26, and 31 of the ’626 patent. As discussed above, I think the question of infringement of
claims 2 and 15 is moot. Prior to trial, the non-infringement arguments raised by Defendant as to the
’626 patent were limited to (1) invalidity, (2) that Defendant did not administer any compounds, (3) no single entity performed all of the steps of the method, and
(4) the proposed label did not include instructions to
administer naltrexone and bupropion “to increase satiety” or “suppress the appetite.” (D.I. 129 at 3-4). By
order dated May 19, 2017, I held that Defendant
would not be allowed to raise new non-infringement
arguments for the first time at trial and had waived
the right to contest the “effective to induce weight
loss” and “effective to enhance the weight loss effect”
limitations of the asserted claims. (Id. at 3, 5).
1.

Findings of Fact

1. As construed by the Court, the term “administering” as used in the claims of the ’626 patent means
“delivering into the body.” (D.I. 62).
2. As construed by the Court, the term “a weight loss
effective amount of a first and second compound”
as used in the claims of the ’626 patent means “a
weight loss effective amount of a first and second
compound, in combination.” (D.I. 62).
3. Actavis had knowledge of the ’626 patent prior to
filing Actavis’s ANDA. (D.I. 131, Ex. 1 at ¶ 18)
4. Actavis’s ANDA sets forth a method for treating
overweight or obesity through the use of Actavis’s

78a
ANDA Product. (D.I. 131, Ex. 1 at ¶ 19; PTX-022;
Tr. 87:11-88:2).
5. Actavis’s ANDA instructs physicians (or other
healthcare provider) to diagnose an individual as
suffering from overweight or obesity by determining that the individual has a body mass index
(“BMI”) of at least 27 kg/m2. (PTX-022.0001,
0005-.0007; Tr. 87:20-88:2).
6. Actavis’s ANDA (prescribing information) includes a BMI conversion chart for use in diagnosis. (PTX-022.0007; Tr. 87:21-88:2).
7. Actavis’s ANDA Product is indicated for the treatment of obese or overweight individuals based on
calculating BMI. (PTX-022.0001, 0005-.0007; Tr.
87:11-88:2, 92:15-93:8).
8. Each tablet of Defendant’s ANDA Product contains 90 mg of bupropion HC1 and 8 mg naltrexone HC1 in a single extended-release, oral dosage
form. (D.I. 131, Ex. 1 at ¶¶ 33-34; Tr. 91:13-92:14,
93:8-10, 95:4-13, 98:14-23).
9. As Defendant’s ANDA Product contains both bupropion and naltrexone in a single tablet, the two
active ingredients are administered together
when a patient takes the product. (PTX-022.0002,
.0006, .0008; Tr. 91:13-23, 95:4-13).
10. As required by claims 26 and 31, the amount of
bupropion and naltrexone in combination in Defendant’s ANDA Product is effective to cause
weight loss for an overweight or obese individual.
(PTX-022.0005-.0006, .0039-.0040; Tr. 92:1893:10, 152:23-153:3).

79a
11. As required by claims 26 and 31, the weight loss
activity of the bupropion and naltrexone in Defendant’s ANDA Product is enhanced compared to
the administration of the same amount of naltrexone or bupropion alone. (PTX-022.0005, .0028,
.0039-0040; Tr. 90:7-91:8, 92:15-93:8, 93:11-19,
94:10-23, 114:11-24, 152:23-153:3).
12. Claim 25 of the ’626 patent, from which claims 26
and 31 depend, only contains an administering
step. (JTX-002.0024; Tr. 85:1-7, 158:13-159:3).
13. Through its label, Defendant actively encourages
patients to practice each element of the claimed
method of claim 26 by administering Defendant’s
ANDA Product to themselves in accordance with
the limitations of claim 26.
14. Through its label (as set forth in D.I. 165 at ¶¶ 871), Defendant actively encourages patients to
practice each element of the claimed method of
claim 31 by administering Defendant’s ANDA
Product to themselves in accordance with the limitations of claim 31.
15. Plaintiff established by a preponderance of the evidence that each of the limitations of Claims 26
and 31 of the ’626 patent is demonstrated by Defendant’s ANDA, and that Defendant had the requisite intent to induce infringement, including
knowledge of the ’626 patent before submitting its
ANDA. (D.I. 131, Ex. 1 at ¶¶ 18-19, 33-34; PTX022.0001-.0003, 0005-.0006, .0028, .0039-0040;
Tr. 77:6-96:14, 152:23-153:3; 157:18-183:8).

80a
2.

Conclusions of Law

As summarized in the findings of fact above, at trial,
Plaintiff presented evidence that Defendant’s proposed label induces infringement by meeting all limitations of claims 26 and 31 of the ’626 patent. Divided
infringement was the only non-infringement defense
Defendant presented at trial. (D.I. 165 at 40, ¶ 83). I
have already held that claims 26 and 31 involve the
single step of administering and do not require a separate diagnosing step. Therefore, I hold that Plaintiff
has shown by a preponderance of evidence that Defendant’s ANDA product infringes claims 26 and 31 of
the ’626 patent.
V.

CONCLUSION

Defendants failed to prove by clear and convincing
evidence that claims 26 and 31 of the ’626 patent,
claim 1 of the ’111 patent, and claim 11 of the ’195 patent are invalid. Plaintiff proved by a preponderance
of the evidence that Defendant directly infringes
claim 1 of the ’111 patent and indirectly infringes
claims 26 and 31 of the ’626 patent and claim 11 of the
’195 patent.
Plaintiffs should submit an agreed upon form of final judgment within two weeks.

81a
APPENDIX C
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
NALPROPION PHARMACEUTICALS, INC.,
Plaintiff-Appellee
v.
ACTAVIS LABORATORIES FL, INC.,
Defendant-Appellant
2018-1221
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00451-RGA, Judge
Richard G. Andrews.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before Prost, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, AND STOLL, Circuit Judges.
PER CURIAM.

82a
ORDER
Appellant Actavis Laboratories FL, Inc. filed a combined petition for panel rehearing and rehearing en
banc. A response to the petition was invited by the
court and filed by Appellee Nalpropion Pharmaceuticals LLC. The petition was referred to the panel that
heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit judges who
are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 23, 2019.
FOR THE COURT
December 16, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

83a
APPENDIX D
United States Patent
McKinney et al.
Patent No.: US 8,916,195 B2
Date of Patent: Dec. 23, 2014
SUSTAINED RELEASE FORMULATION OF
NALTREXONE
Inventors: Anthony A. McKinney, San Diego, CA
(US); Gary D. Tollefson, Indianapolis,
IN (US); Richard Soltero, Holly
Springs, NC (US); Thea Elise Dunzo,
Durham, NC (US)
Assignee:

Orexigen Therapeutics, Inc., La Jolla,
CA (US)

Notice:

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 974 days.

Appl. No.:

11/757,773

Filed:

Jun. 4, 2007
***
ABSTRACT

A sustained-release oral dosage form of naltrexone or
a pharmaceutically acceptable salt thereof is provided. The oral dosage form may be administered
with another compound. Administration of the oral
dosage form may reduce a side effect, which may be a
side effect at least partially attributable to a weightloss treatment. The oral dosage form may be administered to treat a weight-loss condition.

84a
***

85a

86a

***

87a
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 shows the dissolution profile of sustained release 5 mg naltrexone tablets containing polyethylene
oxide.
FIG. 2 shows the dissolution profile of sustained release 5 mg naltrexone tablets containing hydroxypropylmethyl cellulose.
FIG. 3 shows the dissolution profile of sustained release naltrexone and bupropion tablets containing hydroxypropyl methyl cellulose.
***
DEFINITIONS
***
The term “release rate”, as used herein, has its ordinary meaning as understood by those skilled in the art
and thus includes, by way of non-limiting example, a
characteristic related to the amount of an active ingredient released per unit time as defined by in vitro
or in vivo testing. An in vitro release rate is determined by a “standard dissolution test.,” conducted according to United States Pharmacopeia 24th edition
(2000) (USP 24), pp. 1941-1943, using Apparatus 2 described therein at a spindle rotation speed of 100 rpm
and a dissolution medium of water, at 37° C., or other
test conditions substantially equivalent thereto.
***
Formulations
Oral dosage forms may comprise naltrexone and a
sustained-release carrier. A sustained release carrier
includes, by that are included in a pharmaceutical

88a
formulation in amounts that are effective to extend
the release rate of naltrexone from the formulation as
compared to an immediate-release formulation (e.g.,
REVIATM immediate-release naltrexone hydrochloride). A sustained release carrier may be referred to
herein as a retardant excipient. Examples of sustained release carriers include hydroxypropylmethyl
cellulose, polyethylene oxide, polyacrylate, copolymer
of acrylate and methacrylate, methacrylate polymer,
copolymer of acrylate and methacrylate, copolymer of
acrylate and methacrylate with ammonium group, copolymer of maleic anhydride and methyl vinyl ether,
hydroxy propyl ethyl cellulose, hydroxy propyl cellulose, hydroxy ethyl cellulose, methyl cellulose, hydroxymethyl methacrylate, maltodextrin, natural
gum and xanthan gum. In some embodiments, the
sustained-release carrier composition comprises at
least one of hydroxypropylmethylcellulose and polyoxyethylene. A sustained release carrier composition
may contain one or more sustained release carriers,
along with other suitable ingredients.
In some embodiments, an oral dosage form comprising naltrexone comprises an amount of a sustainedrelease carrier composition that is effective to render
the dosage form pharmacokinetically distinct from an
immediate-release formulation (e.g., REVIATM immediate-release naltrexone hydrochloride). For example,
relative to the immediate-release formulation, the
amount and type of sustained-release carrier composition may be selected to reduce the naltrexone Cmax
and/or the 6-beta naltrexol Cmax (e.g., to about 80% or
less than the naltrexone Cmax of or 6-beta naltrexol
Cmax of immediate-release naltrexone).

89a
The amount of the sustained-release carrier composition may be effective to provide an in vitro release
rate of the naltrexone of less than about 90%, or less
than about 80%, in about 2 hours. The amount of the
sustained-release carrier composition may be effective
to provide an in vitro release rate of the naltrexone of
less than about 98% in about 4 hours. The amount of
the sustained-release carrier composition maybe effective to provide an invitro release rate of the naltrexone of less than about 80% or than about 70% in about
1 hour. In vitro release rate is determined by a standard dissolution test as described above.
A description of representative sustained release
carrier materials can be found in the Remington: The
Science and Practice of Pharmacy (20th ed, Lippincott
Williams & Wilkens Publishers (2003)), which is incorporated herein by reference in its entirety. Those
skilled in the art can formulate sustained-release carrier compositions using routine experimentation informed by the detailed guidance provided herein.
Dosage forms described herein may be formulated
to comprise various excipients, binders, carriers, disintegrants, coatings, etc. Pharmaceutical preparations can be obtained by mixing one or more solid excipients with a pharmaceutical composition as described herein, optionally grinding the resulting mixture, and processing the mixture of granules, after
adding suitable auxiliaries, if desired, to obtain pharmaceutical compositions suitable for use in various
forms, e.g., as pills, tablets, powders, granules, dragees, capsules, liquids, sprays, gels, syrups, slurries,
suspensions and the like, in bulk or unit dosage forms,
for oral ingestion by a patient to be treated. Various
examples of unit dosage forms are described herein;

90a
non-limiting examples include a pill, a tablet, a capsule, a gel cap, and the like. Examples of suitable excipients are listed below, some of which are mentioned
above as having particular dissolution properties.
Pharmaceutically acceptable carriers or diluents for
therapeutic use are well known in the pharmaceutical
art, and are described, for example, in Remington: The
Science and Practice of Pharmacy (2003), which is
hereby incorporated by reference in its entirety. The
term “carrier” material or “excipient” herein can mean
any substance, not itself a therapeutic agent, used as
a carrier, diluent, adjuvant, binder, and/or vehicle for
delivery of a therapeutic agent to a subject or added to
a pharmaceutical composition to improve its handling
or storage properties or to permit or facilitate formation of a dose unit of the composition into a discrete
article such as a capsule or tablet suitable for oral administration. Excipients can include, by way of illustration and not limitation, diluents, disintegrants,
binding agents, adhesives, wetting agents, polymers,
lubricants, glidants, substances added to mask or
counteract a disagreeable taste or odor, flavors, dyes,
fragrances, and substances added to improve appearance of the composition. The glidants may be one or
more of colloidal silicon dioxide, talc, corn starch, DLleucine, sodium lauryl sulfate, and magnesium, calcium and sodium stearates. The diluents may be one
or more of lactose, starch, mannitol, sorbitol, dextrose,
microcrystalline cellulose, dibasic calcium phosphate,
sucrose based diluents, confectioners sugar, monobasic calcium sulfate monohydrate, calcium sulfate dihydrate, calcium lactate trihydrate, dextrates, inositol, hydrolyzed cereal solids, amylose, powdered cellulose, calcium carbonate, glycine, or bentonite.

91a
Acceptable excipients include lactose, sucrose, starch
powder, maize starch or derivatives thereof, cellulose
esters of alkanoic acids, cellulose alkyl esters, talc,
stearic acid, magnesium stearate, magnesium oxide,
sodium and calcium salts of phosphoric and sulfuric
acids, gelatin, acacia gum, sodium alginate, polyvinylpyrrolidone, and/or polyvinyl alcohol, saline, dextrose,
mannitol, lactose, lecithin, albumin, sodium glutamate, cysteine hydrochloride, and the like. Examples
of suitable excipients for soft gelatin capsules include
vegetable oils, waxes, fats, semisolid and liquid polyols. Suitable excipients for the preparation of solutions and syrups include, without limitation, water,
polyols, sucrose, invert sugar and glucose. The pharmaceutical compositions can additionally include preservatives, solubilizers, stabilizers, wetting agents,
emulsifiers, sweeteners, colorants, flavorings, buffers,
coating agents, or antioxidants. Dissolution or suspension of the active ingredient in a vehicle such as
water or naturally occurring vegetable oil like sesame,
peanut, or cottonseed oil or a synthetic fatty vehicle
like ethyl oleate or the like may be desired. Buffers,
preservatives, antioxidants and the like can be incorporated according to accepted pharmaceutical practice. The compound can also be made in microencapsulated form. If desired, absorption enhancing preparations (for example, liposomes), can be utilized.
Those skilled in the art can formulate sustained-release dosage forms containing one or more of the foregoing ingredients by routine experimentation informed by the detailed guidance provided herein.
***

92a
EXAMPLES
***
The following example describes the dissolution profiles of the sustained release naltrexone formulations
described above.
Example 2
The dissolution measurements for the tablets were
completed using a 10-mesh baskets at 100 rpm. Samples were analyzed using a UV-VIS at λmax of 280. The
dissolution data of the active pharmaceutical ingredient (API) for the HPMC formulations and PolyOx formulations are presented in Tables 5 and 6, respectively. Dissolution data for the HPMC formulations
and PolyOx formulations are also plotted in FIGS. 1
and 2, respectively.

93a

94a

95a
Example 3
Sustained-release naltrexone-bupropion tri-layer
tablets were made using the ingredients listed in Table 7 through Table 9, in accordance with the general
methods for making tri-layer tablets described in U.S.
Provisional Patent Application Ser. No. 60/865,157,
filed Nov. 9, 2006, which is hereby incorporated by reference in its entirety. A sustained-release naltrexone
formulation was made by combining the following
components:

Thus, the sustained-release naltrexone formulation
includes 10% HPMC. A bupropion blend was made by
combining the following components:

96a

An inert layer blend was made by combining the following components:

The sustained-release naltrexone formulation, bupropion blend and inert layer blends were used to
form 150 tri-layer tablets with the naltrexone and bupropion layers on opposite sides of the inert layer,
such that each tablet was 662.00 mg. The tablets each
contained 11.94 mg of naltrexone (13.22 mg naltrexone hydrochloride).
The dissolution data of naltrexone for the tablets is
presented in Table 10. Dissolution data is also plotted
in FIG. 3.

97a

***
What is claimed is:
1. A method of treating overweight or obesity having reduced adverse effects comprising:
identifying a subject in need of a treatment for obesity or overweight; and
orally administering at least daily about 4 mg to
about 32 mg of naltrexone and about 90 mg to
about 360 mg of bupropion, or pharmaceutically acceptable salts thereof to said subject,
wherein the bupropion or pharmaceutically acceptable salt thereof is administered as a sustained-release formulation, wherein the naltrexone or pharmaceutically acceptable salt
thereof is administered as a sustained-release
formulation having an in vitro naltrexone dissolution profile in a dissolution test of USP Apparatus 2 Paddle Method at 100 rpm in a dissolution medium of water at 37° C. of:
a) between 39% and 70% of naltrexone released in one hour, and

98a
b) between 62% and 90% of naltrexone released in two hours,
whereby at least one adverse effect associated
with administration of the same amount of an
immediate release naltrexone formulation and
said sustained release formulation of bupropion
or a pharmaceutically acceptable salt thereof is
reduced.
2. The method of claim 1, wherein the amount of
bupropion or pharmaceutically acceptable salt thereof
administered per day is selected from the group consisting of about 90 mg, about 180 mg, about 270 mg,
and about 360 mg, and the amount of naltrexone or
pharmaceutically acceptable salt thereof administered per day is selected from the group consisting of
about 4 mg, about 8 mg, about 12 mg, about 16 mg,
about 24 mg and about 36 mg.
3. The method of claim 2, wherein said naltrexone
and bupropion, or pharmaceutically acceptable salts
thereof, are administered in a single oral unit dosage
form.
4. The method of claim 2, wherein said sustainedrelease formulation of naltrexone provides an in vivo
plasma concentration profile of:
a) a naltrexone Cmax that is less than 80% of the naltrexone Cmax of an equal amount of immediaterelease naltrexone hydrochloride; and
b) a naltrexone AUClast that is between 80% and
125% of the naltrexone AUClast of an equal
amount of immediate-release naltrexone hydrochloride.

99a
5. The method of claim 4, wherein said naltrexone
and bupropion, or pharmaceutically acceptable salts
thereof, are administered in a single oral unit dosage
form.
6. The method of claim 1, wherein said sustainedrelease formulation of naltrexone or a pharmaceutically acceptable salt thereof provides an in vitro release rate of naltrexone in the dissolution test of at
least 99% in 8 hours.
7. The method of claim 1, wherein said sustainedrelease formulation of naltrexone or a pharmaceutically acceptable salt thereof is administered twice
daily.
8. The method of claim 1, wherein said sustainedrelease formulation of naltrexone or a pharmaceutically acceptable salt thereof provides an in vitro release rate of naltrexone in the dissolution test of between 23% to 48% in 0.5 hour, between 51% and 67%
in 1 hour, and between 74% and 90% in 2 hours.
9. The method of claim 8, wherein said in vitro release rate of naltrexone is about 85% in 2 hours.
10. The method of claim 9, wherein said sustainedrelease formulation of naltrexone or a pharmaceutically acceptable salt thereof provides an in vitro release rate of naltrexone in the dissolution test of at
least 99% in 8 hours.
11. A method of treating overweight or obesity having reduced adverse effects comprising orally administering daily about 32 mg of naltrexone and about 360
mg of bupropion, or pharmaceutically acceptable salts
thereof, to a person in need thereof, wherein the bupropion or pharmaceutically acceptable salt thereof is

100a
administered as a sustained-release formulation,
wherein the naltrexone or pharmaceutically acceptable salt thereof is administered as a sustained-release
formulation, and wherein said sustained-release formulation of naltrexone has an in vitro naltrexone dissolution profile in a dissolution test of USP Apparatus
2 Paddle Method at 100 rpm in a dissolution medium
of water at 37° C. of:
a) between 39% and 70% of naltrexone released in
one hour,
b) between 62% and 90% of naltrexone released in
two hours; and
c) at least 99% in 8 hours;
wherein about 16 mg of said sustained-release formulation of naltrexone or a pharmaceutically acceptable salt thereof is administered twice daily,
and about 180 mg of said sustained-release formulation of bupropion or a pharmaceutically acceptable salt thereof is administered twice daily.
12. The method of claim 1, wherein said at least one
adverse effect comprises at least one adverse effect selected from the group consisting of nausea, headache
and dizziness.
13. The method of claim 12, wherein said at least
one adverse effect comprises nausea.
14. The method of claim 1, wherein said sustainedrelease naltrexone formulation or pharmaceutically
acceptable salt thereof and said sustained-release bupropion or pharmaceutically acceptable salt thereof
are administered in separate oral dosage forms.

101a
15. The method of claim 4, wherein said sustainedrelease formulation of naltrexone further provides an
in vivo plasma concentration profile of:
c) a 6-beta naltrexol Cmax, that is less than 80% of
the 6-beta naltrexol Cmax of an equal amount of
immediate-release naltrexone hydrochloride;
and
d) a 6-beta naltrexol AUClast that is between 80%
and 125% of the 6-beta naltrexol AUClast of an
equal amount of immediate-release naltrexone
hydrochloride.

